<html>
<title> - MARINER EDUCATION AND WORKFORCE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                     MARINER EDUCATION AND WORKFORCE

=======================================================================


                                (110-79)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 17, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                     U.S. GOVERNMENT PRINTING OFFICE

38-515 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
JULIA CARSON, Indiana                BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California

                                  (ii)


        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

GENE TAYLOR, Mississippi             STEVEN C. LaTOURETTE, Ohio
RICK LARSEN, Washington              DON YOUNG, Alaska
CORRINE BROWN, Florida               HOWARD COBLE, North Carolina
BRIAN HIGGINS, New York              WAYNE T. GILCHREST, Maryland
BRIAN BAIRD, Washington              FRANK A. LoBIONDO, New Jersey
TIMOTHY H. BISHOP, New York, Vice    TED POE, Texas
Chair                                JOHN L. MICA, Florida
VACANCY                                (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Annessa, Carl, COO/Vice President for Operations, Hornbeck 
  Offshore Services for Offshore Marine Service Association......    29
Beacom, Captain William, Navigation Consultant, Professional 
  Mariner........................................................    29
Connaughton, Sean, Administrator, MARAD..........................     6
Craine, Jr., Admiral John, Jr. USN, Retired, President, S.U.N.Y. 
  Maritime College...............................................    29
Eriksson, Berit, Former Executive Director, Pacific Coast 
  Maritime Consortium............................................    44
Hammond, Cathy, CEO, Inland Marine Service for American Waterway 
  Operators......................................................    29
Rodriguez, Michael, Executive Assistant to the President, 
  Masters, Mates and Pilots......................................    29
Slesinger, Captain Jeff, Western Towboat Company, Chairperson, 
  Committee on Strategic Planning, Pacific Marine Towing Industry 
  Partners.......................................................    44
Sulzer, Captain Arthur H., USN, Retired, Board Member, Maritime 
  Academy Charter High School....................................    44
Tellez, Augustin, Executive Vice President, Seafarers 
  International Union............................................    44
Whitehead, Rear Admiral Joel, U.S. Coast Guard...................     6

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Bishop, Hon. Timothy H., of New York.............................    56
Cummings, Hon. Elijah E., of Maryland............................    57
Oberstar, Hon. James L., of Minnesota............................    63

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Annessa, Carl....................................................    66
Beacom, Capt. William............................................    74
Connaughton, Sean T..............................................    76
Craine, Jr., Admiral John W......................................    86
Eriksson, Berit..................................................    95
Hammond, Cathy...................................................   120
Rodriguez, Michael J.............................................   135
Slesinger, Capt. Jeff............................................   143
Sulzer, Capt. Arthur H...........................................   152
Tellez, Augustin.................................................   166
Whitehead, Rear Admiral Joel.....................................   174

                       SUBMISSIONS FOR THE RECORD

Whitehead, Rear Admiral Joel, U.S. Coast Guard, response to 
  question from Rep. Taylor......................................    21

                        ADDITIONS TO THE RECORD

Seamen's Church Institute, Eric K. Larsson, Director of Maritime 
  Training and Education, written statement......................   187

[GRAPHIC] [TIFF OMITTED] 38515.001

[GRAPHIC] [TIFF OMITTED] 38515.002

[GRAPHIC] [TIFF OMITTED] 38515.003

[GRAPHIC] [TIFF OMITTED] 38515.004

[GRAPHIC] [TIFF OMITTED] 38515.005

[GRAPHIC] [TIFF OMITTED] 38515.006

[GRAPHIC] [TIFF OMITTED] 38515.007

[GRAPHIC] [TIFF OMITTED] 38515.008

[GRAPHIC] [TIFF OMITTED] 38515.009

[GRAPHIC] [TIFF OMITTED] 38515.010

[GRAPHIC] [TIFF OMITTED] 38515.011



            HEARING ON MARINER EDUCATION AND THE WORK FORCE

                              ----------                              


                      Wednesday, October 17, 2007

                   House of Representatives
    Committee on Transportation and Infrastructure,
   Subcommittee on Coast Guard and Maritime Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2165, Rayburn House Office Building, the Honorable Elijah 
E. Cummings [Chairman of the Subcommittee] presiding.
    Mr. Cummings. The Subcommittee will come to order.
    Before we begin, I ask unanimous consent that Congresswoman 
Laura Richardson may sit with the Subcommittee and participate 
in this hearing, and without objection, it is so ordered. I am 
hopeful that she will be joining us shortly, and I will say a 
little bit more about her at that time.
    Today, our Subcommittee convenes to consider two inter-
related topics that are of great importance to the future 
success of the maritime industry. Specifically, we will examine 
the nature, causes, and forecasts of labor shortages in the 
industry, and we will examine trends and innovations in 
maritime innovation.
    According to the U.S. Department of Commerce, ports are the 
gateways through which 80 percent of our Nation's foreign trade 
enters our Country. Commerce in our Nation's maritime sector 
accounts for approximately $750 billion of U.S. gross domestic 
product.
    Waterborne trade, which totaled 2.3 billion metric tons in 
2005, is increasing at a startling rate, and the growth in 
imported cargo, combined with our own domestic production, is 
creating freight volumes that are straining our transportation 
networks.
    At the same time, significant changes continue to transform 
the experience of working in the maritime industry.
    No longer is the sailor's life necessarily one of 
adventure, offering a young person the chance both to learn 
about sailing through on-the-job experiences at sea while 
occasionally spending weeks exploring port cities around the 
world.
    Deadlines and cost margins are tight and ships sail with 
the fewest possible number of crew members, who are expected to 
fulfill multiple duties while keeping regular watches, and who 
usually spend no more than a few hours in any port.
    The significant changes occurring in the maritime industry 
appear to be contributing to labor shortages that, in turn, 
threaten to further strain the industry.
    The nature and extent of the shortages is not well 
quantified and they appear to vary by type of mariner and type 
of vessel. An important part of our job today is to understand 
these shortages and to project their potential impact on the 
various segments of the U.S. maritime industry.
    Based on data the United States Maritime Administration has 
provided, however, we know that the average age of a mariner 
with a Masters license is 51, while the average age of a Chief 
Engineer is 50. Figures also suggest that nearly 30 percent of 
inland mariners will be eligible to retire in the near future.
    There are likely many factors that can contribute to a 
labor shortage in the maritime industry, and just as the extent 
of the shortages is not known, the impact of each factor is 
difficult to assess.
    Certainly, the lifestyle associated with the maritime 
industry presents unique challenges. While the lure of the sea 
has been a siren song to many throughout the ages, many people 
are also lured by the call of home, and they may prefer to 
relax with their families at the end of the day rather than 
retire to a small cabin at the end of a hard shift. Wage 
differentials between jobs at sea and jobs on land may 
contribute to shortages, particularly when combined with the 
lifestyle challenges of life on the water.
    Further, significant new standards for training and 
continuing education have been applied to mariners through the 
1995 amendments to the Convention on the Standards of Training, 
Certification, and Watchkeeping.
    These standards serve the critical goal of improving safety 
in the maritime industry and reducing human factors as the 
causes of maritime accidents, but they have also had the effect 
of imposing expensive and time-consuming training requirements 
on mariners, particularly on unlicensed mariners seeking to 
climb their way up the hawsepipe to command a ship.
    There are certainly outstanding facilities in the United 
States that help train individuals to enter the maritime 
industry and to advance in their careers, such as the Paul Hall 
Center for Maritime Training in Piney Point, Maryland, run by 
the Seafarers International Union, which I have had the honor 
of visiting, and the Maritime Institute of Technology and 
Graduate Studies associated with the Masters, Mates, and Pilots 
Union, which I have also had the honor of visiting.
    However, attendance at such facilities can be expensive and 
require a significant commitment of time that maritime 
schedules may not allow a mariner to easily make.
    Further, we need to assess whether current maritime 
education programs have the capacity to meet the demand of 
those who are just now entering the maritime industry.
    In short, our hearing today is intended to enable us to 
draw a comprehensive picture of the personnel situation of the 
U.S. maritime industry.
    Our examination will inform the future development of 
policies needed to ensure that our Nation has the labor we need 
to keep maritime commerce flowing and to ensure that those 
contemplating working on the water will have the chance to 
advance along a career path that brings them new opportunities.
    Before I recognize the Ranking Member, I also want to 
discuss for one moment a trend in maritime education that is of 
significance to me, and that is the growth or, I might say, re-
growth of maritime-themed high schools across the Nation.
    In his written testimony, Captain Art Sulzer, who will 
appear on our third panel, has presented a very comprehensive 
discussion of the past history of high school-level maritime 
education as well as the successes of and challenges faced by 
new maritime-themed high schools being created today.
    Shortly after becoming Chair of this Subcommittee, I 
learned that my own city of Baltimore had established a 
maritime-themed high school some five or six years ago.
    After visiting the school, I learned that it had been 
achieving impressive test results and graduation rates, but the 
school system had not made the investments necessary to ensure 
that the school was truly offering a maritime education and 
could prepare students for work in the maritime industry.
    Over the past summer, I have been working closely with a 
very dedicated group of individuals from the Baltimore maritime 
community, including former Congresswoman Helen Bentley, to 
ensure that the promise inherent in the school's name, Maritime 
Industries Academy, was fulfilled and that students could 
receive a maritime education that would be meaningful.
    We have succeeded in revitalizing the school's Junior Naval 
ROTC program and have introduced a guest lecture series to 
bring the maritime community into the school.
    We are poised to achieve even greater results with the 
creation of a new advisory board that will guide the school 
through the process of applying for a charter, which will 
hopefully give the school the flexibility it needs to support 
an expansive maritime curriculum.
    I want to briefly acknowledge the significant contributions 
that many of those who are joining us today are making to the 
development of this project, including Administrator 
Connaughton and his staff members, Sharon LeGrand, Shannon 
Russell, and Richard Corley, who continue to bring the 
resources of the Federal Government to support this school. 
MARAD also put us in touch with Captain Sulzer, who has been a 
key advisor. I also want to pay special tribute to Dick 
Fredericks for his hard work. I also thank Mr. Mike Rodriguez, 
Walt Megonigal, and the Masters, Mates, and Pilots Union and 
its MITAGS institution; Augustin Tellez and the Seafarers 
International Union; and Admiral Craine, the President of the 
New York Maritime Academy, which is creating a new partnership 
for maritime high schools in which I look forward to having 
Baltimore Maritime Industries Academy participate.
    Every time I visit the school, whose advancement has become 
a top priority for me, I see first-hand the challenges, but I 
also see the possibilities of maritime education and I gain a 
new kind of insight into the maritime industry that I frankly 
have not received from any other source.
    My experience with this school also makes the subject of 
today's hearing very personal to me.
    I am truly hopeful that school districts around the Country 
can benefit from the lessons that those who are testifying 
today are learning regarding how best to support the 
development of maritime schools and open such schools in their 
local communities.
    I look forward to the testimony of our witnesses, and now I 
yield to our distinguished Ranking Member, Congressman 
LaTourette.
    Mr. LaTourette. Thank you very much, Mr. Chairman, for the 
recognition. I have to apologize this morning for being a 
little bleary eyed. It took longer for the Cleveland Indians to 
dispatch the Boston Red Sox than I had hoped last night.
    [Laughter.]
    Mr. LaTourette. This morning, the Subcommittee will hear 
from several witnesses on the state of the maritime workforce 
and the recommendations for enhancements and initiatives to 
attract and retain workers in the maritime trades. Our Nation's 
economy depends on a well trained and skilled maritime 
workforce, and I look forward to hearing the witnesses' 
suggestions.
    Earlier this year, I introduced H.R. 1605, which was titled 
the Merchant Mariner Credentials Improvement Act of 2007. I am 
very grateful to you, Chairman Cummings, and also to Chairman 
Oberstar, for including this bill as a part of the larger Coast 
Guard authorization bill, and I look forward to working with 
both of you to enact those provisions in the law.
    These provisions include common sense changes to the Coast 
Guard's documentation and licensing processes. The bill would 
authorize maritime workers to renew their documents and 
licenses before their existing credentials expire, allow the 
Coast Guard to temporarily extend the validity of credentials, 
and reduce the number of times that maritime workers would be 
required to appear in person and be finger-printed for Federal 
documents.
    The bill also would allow newly hired workers to start 
working in an interim clearance status before they receive the 
transportation worker identification card. Lastly, the bill 
recognizes the impacts that a shortage in the number of 
merchant mariners would have on the U.S. fleet, our economy, 
and our national security. I look forward to hearing the 
thoughts of our witnesses on all of the panels today on how 
such a shortage can be prevented.
    Again, Mr. Chairman, I want to thank you for holding this 
important hearing, and I thank the witnesses in advance for 
their testimony, and yield back.
    Mr. Cummings. Mr. Baird.
    Mr. Baird. I thank the Chairman for holding this meeting. 
The problem you are addressing today is part of a problem 
throughout the transportation industry, and I will just make a 
brief plug. Phil English and I have created a caucus called the 
Career and Technical Education Caucus to address precisely 
these concerns.
    And though I am a former university professor, back home I 
hear more requests for people who can drive diesel trucks, 
repair diesel engines, hang drywall, fix electrical wiring, 
etc., than I hear for liberal arts majors. Nothing against the 
liberal arts majors in the crowd, including myself, but we need 
to do a lot more for career and tech ed in this Country. We 
have a paradox of people worried about jobs being exported 
overseas. Even as employers today, with high-paying jobs, can't 
find skilled workers to fill those jobs. So I would hope that 
this is the first of a series, perhaps, of hearings we have on 
this issue of the need for a skilled workforce.
    Finally, I would urge Members on both sides, when we talk 
about the importance of making a college education more 
affordable, to add the words career and technical education, 
because there are well-paying, decent jobs that people can put 
food on their table for their families and serve this Country 
quite well, and we need to give career and tech ed every bit as 
much status as we give to college education.
    I yield back. Thank you.
    Mr. Cummings. Thank you very much, Mr. Baird.
    Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. Very brief opening 
statement.
    Good to have you all with us this morning, gentlemen, 
Admiral.
    An issue I want to determine, and I think will be addressed 
today, Mr. Chairman, is whether or not the Federal Government 
has a responsibility to provide training or to ensure the 
availability of training for mariners working in the private 
sector. I suspect that will be addressed by one or both of our 
witnesses, and I thank you for having the hearing, Mr. 
Chairman.
    Mr. Cummings. Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. Thank you for holding 
this hearing. In the interest of time, I will submit my opening 
statement for the record.
    Mr. Cummings. Thank you very much, Mr. Bishop.
    Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman. A couple of brief 
remarks, buttressing what previous Members have said about the 
need for engineers down to dock workers in the maritime 
industry. By the year 2020, I understand the volume of cargo is 
going to double, the number of vessels will double, but the 
number of ports will probably diminish; and the concentration 
of that cargo going into those ports is going to require the 
best kind of intellect that the engineers, the dock workers, 
and we have to offer.
    I would hope that during the course--and there is no 
question that education in the whole range of the maritime 
industry is necessary and we need to put our best people into 
that and our best efforts, and back it up with dollars to make 
those opportunities possible, because they are essential and 
the American public utterly depends on the maritime industry 
for virtually everything they purchase at our stores.
    As we go through this, though, this that we are describing 
today is human activity, and it is human activity impacting, 
more than likely, in a degrading fashion, on very limited 
resources, that is, the environment; and the ecology, the 
environment upon which we ultimately depend, is only now as 
resilient as our understanding of that ecology is. So as we go 
through the fact that we need technical schooling, we need 
engineers, all the way down to dock workers, every one of those 
individuals needs to also understand their place, the impact 
this industry has on those vital natural resources. So human 
activity is important in this maritime industry, but it also 
needs to be and can be compatible with nature's design.
    I represent the Chesapeake Bay, and we are also discussing, 
and more often than not disputing, where dredging needs to take 
place, where a whole range of other activities concerning 
ballast water, invasive species, all of these things need to 
take place. We now know enough information so we don't have to 
sacrifice the Chesapeake Bay so people in Missouri and 
Minnesota and Colorado and Maryland can have the goods they 
need to purchase to improve the quality of their life.
    So as we go through this process, an understanding of where 
we fit in nature's design will certainly benefit our posterity.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much, Mr. Gilchrest.
    Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman. I am concerned about how 
we got in this situation. If we know how we got in this 
situation, maybe we can rectify it and not continue to be, in 
my opinion, a dire situation. Also, has the Federal Government, 
with its regulations, made this worse or is it making it 
better? I would like some candid answers on the role of the 
Federal Government; does it get in the way or does it help.
    And with that, Mr. Chairman, I will yield back. Thank you.
    Mr. Cummings. Thank you very much.
    That being the end of the opening statements, we will now 
hear from Admiral Joel Whitehead, Commander of the Coast 
Guard's Eighth District, and Mr. Sean Connaughton, 
Administrator of the United States Maritime Administration.
    Thank you, gentlemen, for being with us. You will have five 
minutes to provide a summary of your testimony and then we will 
have some questions.

  TESTIMONY OF REAR ADMIRAL JOEL WHITEHEAD, U.S. COAST GUARD; 
             SEAN CONNAUGHTON, ADMINISTRATOR, MARAD

    Admiral Whitehead. Good morning, Mr. Chairman and 
distinguished Members of the Subcommittee. I am Admiral Joel 
Whitehead, Commander of the Eighth Coast Guard District in New 
Orleans. The Eighth Coast Guard District is the largest of nine 
Coast Guard districts and covers 26 States, more than 1200 
miles of coastline, and 10,300 miles of inland waterways from 
Florida to Mexico and including the entire navigable lengths of 
the Mississippi, Ohio, Missouri, Illinois, and Tennessee River 
systems. I am pleased to have this opportunity to be with you 
today and to discuss the Coast Guard's role in maritime 
education and workforce.
    The Coast Guard sets standards of training and 
qualification for seafarers and administers the Mariner 
Licensing and Documentation program in compliance with domestic 
and international laws. The aim of the Mariner Licensing and 
Documentation program is to ensure that the U.S. merchant 
marine vessels are manned by qualified, trained, and competent 
personnel.
    In 1978, the International Maritime Organization adopted 
the Standards of Training, Certification, and Watchkeeping for 
Seafarers Convention of 1978. The U.S. deferred ratification 
efforts and worked for over a decade to make the necessary 
changes to our licensing regulations to comply with the 
Convention. The U.S. became party to the STCW Convention in 
1991.
    The STCW Convention was significantly amended in 1995. The 
amendments were comprehensive and detailed, resulting in more 
consistent training worldwide. Competence-based standards were 
established that placed emphasis on the requirements for 
training and assessment of skills in almost every facet of a 
mariner's profession.
    To meet our Convention obligations, the Coast Guard 
published an interim rule on June 26th, 1997, implementing the 
1995 amendments. The rule retained the existing licensing 
structure in the United States; it incorporated the STCW 
training and practical demonstrations of skill requirements, 
and included oversight of the training. This rule impacted 
mariners serving on commercial seagoing vessels of over 200 
gross registered tons, whether operating on domestic or 
international voyages, and resulted in increased training costs 
to the mariners. Mariners serving on seagoing vessels of less 
than 200 gross registered tons on domestic voyages and mariners 
serving on non-seagoing vessels, such as inland towing vessels, 
were not impacted by the rule.
    The Coast Guard is currently reviewing the 1997 interim 
rule and is considering seeking additional comments to ensure 
that we continue to meet our obligations under the Convention. 
The review is necessary to incorporate lessons learned during 
the 10-year implementation period, to clarify issues that 
generated confusion to mariners, to address the comments on the 
interim rule, and to address recommendations from the 2003 
independent evaluation of the credentialing and licensing 
program.
    In January of 2007, the IMO began a comprehensive review of 
the STCW Convention that will take several years to complete. 
The review is restricted to a limited number of issues to avoid 
any unnecessary amendments or reduction of the very successful 
training regime and subsequent impact to industry. The 
comprehensive review presents an opportunity to look for 
alternative training approaches not considered during the 1995 
amendments that may help alleviate the burdens imposed by the 
implementation of STCW.
    The Coast Guard has engaged the Department of Homeland 
Security's Merchant Marine Personnel Advisory Committee, or 
MERPAC, to provide recommendations on the issues to assist in 
the development of the positions for the United States.
    The Coast Guard has also partnered with MARAD to oversee 
and evaluate the implementation of STCW by the U.S. Merchant 
Marine Academy and the six State maritime academies. 
Furthermore, the Coast Guard has supported and fostered 
discussions on mariner recruitment and retention to address 
training related issues that would contribute to the shortage 
of qualified U.S. mariners.
    The Coast Guard believes that the STCW has significantly 
enhanced the safety and security of the United States by 
requiring foreign vessels calling on our waters to be manned 
with competent crews. The Coast Guard does recognize that 
implementing the requirements of the STCW Convention for U.S. 
seagoing vessels has imposed a financial burden on our 
mariners, and we continue to examine methods that may 
potentially reduce some of the challenges associated with the 
implementation of the STCW requirements.
    The Coast Guard is also undergoing several initiatives that 
aim to positively impact industry, and for the past 12 months 
the Coast Guard has been proceeding with its project to 
restructure and centralize the mariner licensing and 
documentation program. Since June, the National Maritime Center 
has been focused on improving its internal customer services 
processes to issue mariner licenses and documents faster and 
with a higher degree of accuracy and consistency.
    In August, as a result of the process improvements, the NMC 
reduced the inventory of credential applications being 
processed by 39 percent and issued over 2,000 mariner 
credentials, reaching a new production record. While the 
overall processing time remains higher than desired, the 
average license renewal processing time has decreased by 25 
percent since June.
    I thank you for this opportunity to discuss maritime 
education and workforce, and I would be pleased to answer any 
questions you may have.
    Mr. Cummings. Thank you very much.
    Mr. Connaughton.
    Mr. Connaughton. Mr. Chairman, Mr. LaTourette, Members of 
the Subcommittee, it is a great pleasure for me to be here 
today to talk to you about some of the challenges that we are 
facing, but also some of the great opportunities that people 
have if they enter into the maritime industry and what a great 
career it is. Mr. Chairman, I have a prepared statement I would 
like to enter into the record and summarize my remarks, sir.
    Mr. Cummings. So ordered.
    Mr. Connaughton. As you mentioned, sir, we are facing some 
challenges today, primarily due to, first, the strength of the 
American economy, the fact that we are seeing enormous 
recapitalization in the maritime industry, particularly in the 
brown-water fleet, the offshore industry, and the coastwise 
fleets. These have obviously meant that we are seeing a greater 
demand for waterborne transportation and also the people that 
man the vessels.
    But, in addition, we also are facing some challenges when 
you look at the actual personnel themselves. First is 
retirements; the second is that many people are not necessarily 
perceiving maritime industry as a career; regulatory hurdles; 
and other types of concerns, particularly in the 
criminalization of certain types of acts of accidents have made 
going to sea or going and working in the maritime industry less 
attractive than it was in the past.
    In addition, we are also seeing an enormous challenge 
internationally with the shortage of mariners practically 
around the world. In fact, we are looking at most of the 
industry very actively recruiting mariners of every different 
nationality, and we are seeing that actually in the United 
States with foreign companies coming to the United States and 
actively recruiting American mariners.
    The Maritime Administration runs several programs that this 
Committee oversees regarding the training of mariners. The most 
prominent is the U.S. Merchant Marine Academy, which is part of 
our Administration. We currently have around 1,000 cadets and 
graduate a little over 200 every year. Also, we are very much 
involved in the education and the programs of the State 
maritime colleges; we provide the training ships as well as 
direct payments to the schools and individuals through the 
student incentive payment program.
    We do provide some post-graduate types of training through 
the Merchant Marine Academy's GMAT School. But, obviously, for 
the most part, these programs have been very much focused on 
the deep sea mariner and not necessarily the different types of 
challenges that we are facing today in the United States, 
particularly in the brown-water industry and the offshore 
industry.
    What we have been trying to do, sir, is since these--I have 
been in office just about a year, and, traveling quite a bit, I 
have started hearing, anecdotally, many of these concerns being 
raised by employers and mariners about some of the challenges 
they are facing. One of the first things that we are trying to 
do is get out a survey to the industry to actually get some 
data behind some of this anecdotal information. We are nearing 
the final stages in getting that approved and out to the 
industry.
    Also, we have actually upgraded what we call the mariner 
outreach system, which allows mariners to actually come in and 
file with us so we can keep track of what is happening, 
particularly in the offshore and the deep sea industry. Right 
now, we have around 41,000 mariners who have signed up for that 
program.
    We are reaching out to many of the industry associations 
and labor management, labor organizations, to work with them 
and get a better handle about what is happening in the 
industry. We are trying to find expanded opportunities with the 
Department of Labor. We have been working with them initially 
with the shipyard industry, because, obviously, in this 
recapitalization that we are experiencing in the industry, they 
are having the same types of challenges, finding and keeping 
shipyard workers; and we have actually been able to take some 
initial steps in setting up some nationwide programs to help 
the shipyard industry, and now we are trying to explore whether 
we can take that and potentially deal with it and bring it out 
to the mariner community as well.
    One of the things that we continually find some challenges 
with is finding training opportunities for our cadets at the 
Merchant Marine Academy and also at the State maritime schools, 
so we have been reaching out to the broader maritime community 
to see if we can get more cadet berths. I am happy to report 
that we have had the first agreement signed just this week with 
an Overseas Shipholding Group, which will potentially open up 
at least 100 more ships to mariners, primary in the foreign 
flag, but it is an American company.
    We also have some other American companies which have 
sizeable fleets who have indicated that they are willing to 
take American cadets onboard so we can start to get more people 
trained, because one of the challenges that we are facing is 
that one of the biggest limitations for the expansion of the 
enrollment in many of the State maritime schools is the fact 
that we have training ships for them, but they are limited in 
their capacity, and because we can't expand the capacity of 
those vessels, necessarily, we have to look for some of these 
other opportunities if we want to actually get more people 
going to the schools and graduating with licenses.
    In addition, the cadets, graduates from the Merchant Marine 
Academy and those students from the State maritime schools who 
actually take the student incentive payments from us have a 
certain obligation that is in the law. Part of that obligation 
is obviously to keep their license for six years and go to sea. 
What I have done is change the obligation to allow the service 
in the brown-water inland industry to meet that obligation, so 
that students know that, once they graduate, they can actually 
go to work in the inland industry and then meet the obligations 
that they incurred.
    Also what we are working very diligently on is, as you 
mentioned, Mr. Chairman, working with some of these high 
schools programs, because we think that one of the things is 
making our youth aware of the maritime industry and the 
opportunities that exist and the career that now exists in the 
industry. If we can get to them early, get them those skills, 
get them that familiarization, that will hopefully make them 
more interested in going to sea and going to work in the 
maritime industry. So we are trying to get to them as early as 
possible.
    In our recent realignment of the maritime industry, we 
actually did establish an office that is completely dedicated 
to workforce development. Sharon LeGrand, who you mentioned, is 
actually part of that office, and that office's whole purpose 
is really to work on some of these program and policy issues 
and do much more outreach so we can end up, again, getting a 
much more consistent approach on how we go after some of these 
workforce development issues.
    We are also working very diligently to revise our own 
regulations. These regulations that we have today that govern 
the State schools, govern the Merchant Marine Academy, our 
training programs, is well over 20 years old. The challenges 
that those regulations were originally developed in are not the 
challenges we are facing today, so we will hopefully be coming 
out with some revised regulations early next year.
    So, Mr. Chairman, these are some great challenges, but 
incredible opportunities. Particularly, I just want to leave 
one thought, an act that this Subcommittee took a few years 
ago. The Committee came forward with some revisions to the 
Deepwater Port Act. Those changes allowed us to broach the 
subject of taking American mariners and American flagged 
vessels in this growing LNG trade. I am very happy to report 
that we now have commitments from two companies to start to 
take onboard American mariners onboard the LNG vessels calling 
in the United States. We have a commitment from another 
company, Woodside Natural Gas, to actually have two American 
flagged LNGs if their deepwater port license is approved, and 
we believe we will shortly be announcing another company's 
commitment to have an American flagged LNG as well. So, again, 
some great opportunities that are there for us if we are 
willing to try to go out and take it.
    So it is a great pleasure for me to be here. Again, we have 
got challenges, but we have got some great opportunities for 
the men and women who are in the maritime industry that can 
have a great career ahead. Thank you, sir.
    Mr. Cummings. Thank you very much, Mr. Connaughton.
    A little bit earlier in the hearing I had asked unanimous 
consent that Congresswoman Laura Richardson sit with our 
Subcommittee to participate in this hearing and it was ordered. 
She is with us now, and in the way of introduction, 
Congresswoman Richardson has been elected to represent the 37th 
District of California, formerly represented by our 
distinguished colleague, Ms. Juanita Millender-McDonald, who 
was a dedicated Member of the Transportation Committee and of 
this Subcommittee.
    While Ms. Richardson has been assigned to the 
Transportation Committee, her Subcommittee assignments have not 
yet been announced, but we eagerly anticipate she will serve on 
our Subcommittee, and we welcome her to her first hearing with 
us today.
    Ms. Richardson's district includes the Alameda Corridor, 
which provides transportation to and from the Port of Long 
Beach, one of our most vital ports, and she has previously 
worked on transportation issues both as a member of the 
California Assembly and the Long Beach City Council. I know she 
understands from the unique position of her district the 
transportation challenges we confront as a Nation, and she 
shares our Subcommittee's concern to ensure that our Nation's 
maritime industry is as strong as it can be.
    So, to Ms. Richardson, we welcome you, and I will yield to 
you for a response.
    Ms. Richardson. Thank you, Mr. Chairman, and I appreciate 
that very kind welcome by both yourself and the Committee.
    You know, it was kind of interesting when I went back to 
school and got my master's in business, I had an opportunity to 
choose to go overseas and study goods movement and trade in 
China, so I have been both to Hong Kong, Shanghai, and Beijing, 
and have had an opportunity to see their tremendous growth, 
which also impacts how we move forward in this Nation.
    As was stated by the Chairman, coming from the 37th 
Congressional District, I noted in the background that we 
expect an increase doubling of our cargo over the next five 
years, and it states that the majority of that will be in very 
concentrated areas. And I guess I should say either 
congratulations or challenges to me, because I happen to 
represent 45 percent of the entire Nation's cargo goes through 
my district.
    So we will be gladly working with this Committee to carry, 
I think, really, something that is going to be good for this 
Country if we do it wisely, and I look forward to future 
legislation that we will enact to enable that the maritime 
industry is very successful.
    With that, Mr. Chairman, count on me, and I hope to make 
you very proud, and my other colleagues, by my representation.
    Mr. Cummings. Thank you very much.
    Now to the five minute questioning.
    Mr. Connaughton, you talked about the survey of U.S. 
vessels operating in the industry and you mentioned in your 
testimony it would be completed fairly soon, I think you said, 
that it was in its final stages. As I am sure you are well 
aware, this Committee deals with timetables and deadlines 
because we are concerned that if we don't do that, nothing gets 
done. So we want to make sure you give us a timetable so we can 
hold you to that. What is it?
    Mr. Connaughton. Well----
    Mr. Cummings. I am not trying to put you on the spot, but--
--
    [Laughter.]
    Mr. Cummings.--but I am very serious about that. We have 
one life to live--this is no dress rehearsal--and we try to get 
things done. So we don't want to be here 10 years from now 
talking about the survey, when you are off to another job.
    Mr. Connaughton. Well, Mr. Chairman, I appreciate the 
question because I thought we--well, there is a process that we 
must follow, as a government agency, to go out and request any 
information from the public and from business. We have been 
working very diligently to get that survey through that 
process. We initially had to publish in the Federal Register a 
notice that we were going to do the survey. We have gotten that 
through the system. We are now down to the point of where we 
have had now to get the actual questions cleared through the 
system, and it is our hope that that process will be completed 
in the next several weeks. Our goal was to get it out much 
sooner than this; it is just that the system is the system.
    So I would like to tell you that we would--our goal is to 
have it out by December 1st.
    Mr. Cummings. All right.
    Mr. Connaughton. And we will keep you very much informed, 
sir, of what the status is.
    Mr. Cummings. And we will be talking on the last day of 
November.
    Mr. Connaughton. Yes, sir.
    [Laughter.]
    Mr. Cummings. Let me ask you this. Let me go to something 
that you said that I found very interesting, when you talked 
about high schools. There are only a few maritime high schools 
in our Country, and it concerns many Members of Congress that 
we have so many young people who don't even know, don't have a 
clue, about the jobs in the maritime industry. I think one of 
my colleagues said it a few minutes ago, where people can get a 
job and make sufficient funds to support their families and, 
sadly, I think we don't start young enough. In other words, we 
don't expose them early enough. And I am just wondering, 
considering there are only a few high schools now, do you have 
any goals to try to reach out to various school districts?
    You know, the trend in the Nation today is to have these 
specialized high schools. In Baltimore, they have got them for 
homeland security, they have got them for firefighters, all 
kinds of different things, technology, and I am just wondering 
what are we doing, considering the fact that this is an 
industry--and I have read your testimony, which was well done, 
by the way, and it talks about the needs and projects the 
needs. But I am just wondering, at the end of your tenure, do 
you have a goal of addressing that issue, and to what extent, 
under your watch?
    Mr. Connaughton. Mr. Chairman, it is amazing to me to see 
where we are today with regard to demand and the interest in 
mariners, in American mariners. One of the things, as I have 
gone around the Country, I have had the opportunity to meet 
with people in New Orleans, Charleston, our folks have met with 
yours in Baltimore, as well as up in New York about the 
interest in starting up some of these programs. There are 
already some of these high school programs. The issue is how do 
we come up with potentially a model curriculum to get some of 
these programs, which still use or say that they are maritime, 
that are not necessarily in that direction any more, even 
though they may use that title.
    It is now the fact that we can point to them that they have 
a career and they have opportunities. Here we are, just three 
or four months after the graduations from all the State 
schools, Kings Point, and we are looking at 85 percent of the 
graduates afloat or in the military, and another 12 to 13 
percent with some significant short-side jobs; and the salaries 
are just simply tremendous. I mean, what we are looking at is, 
anecdotally, everything from $50,000 to over $100,000 are being 
earned by these graduates, and the demand is there and the 
salaries are there, and trying to reach out to America's youth, 
which just Mr. Baird, I think, mentioned about how difficult is 
in technical--I know my previous position was in local 
government, and we had a very difficult time, even though you 
could show that bricklayers, electricians were graduating at 
18, 19 years old from our technical schools, making $60,000 a 
year in this area, and we had to close the programs down 
because many parents don't recognize that as a viable career.
    We have to do the same thing. I know that it is a problem. 
I think a challenge for all of us is to make people understand 
that 95 percent of the Nation's trade and cargo comes by water, 
is transported by water, and that this is--especially with the 
growth in trade, as Mr. Coble and Mr. Gilchrest mentioned, it 
is going to continue to grow. We are going to become more 
dependent on our maritime highways and this is a career path 
that has unlimited potential.
    Mr. Cummings. Mr. Connaughton, you didn't answer my 
question. Let me restate it. I want you to tell me that by the 
end of your tenure you have certain objectives with regard to 
our high schools. Do you or don't you? You can just say that, 
yes or no, and then I can go a little further. In other words, 
we have a limited time to act, and you have been blessed to be 
placed in this position. I am glad to know you have local 
government experience. What I am trying to get to is I would 
like for you, if you agree with me, to make that one of your 
top priorities, to try to establish more of these high schools.
    And I agree, with the content, they have got to be, 
content-wise, what we need. The school in Baltimore, to be 
frank with you, when they created the school, they did not give 
it the content that they needed, and that is what we are doing 
now. But these young people are eager. They are so excited 
about this school, and it is in the inner city of Baltimore 
and, basically, we anticipate that, in a year, people will be 
knocking down the doors trying to get into this school. And I 
believe there are a lot of youngsters all over our Country 
that, if they only knew--and if the parents; we have got to 
educate parents, you are absolutely right. But I am asking you 
are you committed to trying to do that under your watch.
    Mr. Connaughton. Mr. Chairman, very much so within the 
constraints of the resources I have.
    Mr. Cummings. I understand.
    Mr. Connaughton.. I have entirely five people dedicated to 
all the manpower issues across this industry and we have one 
person that I have essentially focused on these high school 
programs, and the goal there is to develop a model curriculum 
that we can then share with school districts, starting with 
yours, but then sharing with school districts around the 
Country. But the thing is that, again, that is a priority, but 
within the fact that we are a very small agency and obviously 
we have had many funding issues in the past and we are down to 
just the four or five people that I have now pulled in and 
created this office to deal with these types of issues.
    Mr. Cummings. Well, we want to see if we can't perhaps help 
you get more funding, perhaps in the future, so that you can 
carry that out.
    Last, but not least, let me ask you this. Does the Maritime 
Administration have an advertising budget? If our goal is to 
reach out to non-coastal areas, in addition to reaching areas 
that are on the water, is it possible for MARAD to develop an 
advertising campaign to make people aware of the maritime 
industry and let them know that they are needed?
    Mr. Connaughton. We have no funds, sir, none at all.
    Mr. Cummings. So we have got this great need, but we have 
no way of letting people know.
    Mr. Connaughton. I think I have two or three people in my 
public affairs shop and, for the most part, they are reporting 
things that are happening in the press versus being out there.
    Mr. Cummings. Well, we want to work with you on that.
    I see my time is up.
    Mr. LaTourette?
    Mr. LaTourette. Thank you, Mr. Chairman.
    Admiral, in your oral statement, and I think in your 
written statement, you indicated that the Coast Guard is 
cognizant of the fact that some of the new training 
requirements under STCW and maybe TWIC, as well, are causing an 
additional financial burden on mariners. I made a note; I 
thought you said that the Coast Guard is examining that. Can 
you sort of describe the examination and then tell me whether 
or not the Federal Government, to your knowledge, has ever 
participated in providing funds to mariners for these 
additional training requirements and if you are authorized to 
do so?
    Admiral Whitehead. Yes, sir. We are very aware that the 
cost to mariners associated with the STCW Convention 
requirements are costly, particularly for those that are at the 
more senior levels, the Masters, the Chief Engineers. Those 
costs can be very much, they can exceed $20,000 for a full 
round of STCW training requirements. So we are aware that it is 
very costly.
    We are looking into and working with a variety of industry 
training schools into ways that we can bring training in 
approved training courses through different means that would be 
much less costly, perhaps. For example, we are looking into 
computer-assisted training, long-distance training, things that 
actually, in the United States Coast Guard, we are beginning to 
use for our own personnel. We are trying to involve those 
training entities out there to begin to use those sorts of 
things.
    The Coast Guard, to my knowledge, does not have any funding 
directly associated with that, though there was a history of, 
at one period, of some grants that I believe were provided to 
MARAD at one point for training, but at this point we don't 
have funds for that.
    Mr. LaTourette. Two points on that. I understand you don't 
have the funds. Do you think, if you had the funds, you would 
be authorized to make that funding available?
    Admiral Whitehead. I am not aware, sir, that we have a 
legislative authority for using such funds. We certainly get 
involved in many issues, particularly at the local sector 
level, where there are industry days, for example, and we will 
send Coast Guard personnel out to industry days and to assist. 
We recently did one in Greenville, Mississippi that was 
recently sponsored, which was very beneficial; MARAD was there 
as well, I believe. And I think this is opening up, in many 
ways, to people in the heartland of the Country and inner 
cities, if it can be done right, the availability and the real 
jobs that are out there.
    Mr. LaTourette. Maybe that is something, Mr. Chairman, we 
can look at as we move forward with our authorization.
    Administrator Connaughton, you mentioned the LNG trade, and 
we have had a number of hearings on LNGs. Specifically to the 
Merchant Marine Academy and the six State marine academies, is 
there additional capacity at those facilities to accommodate 
more cadets?
    Mr. Connaughton. It is restricted, sir, it is limited. 
Basically, with the State maritime academies, the capacity is 
really limited by the school ships. The school ships that we 
provide have a certain number of berthing. The sea days that 
they obtain on those cruises are essential to getting the sea 
service necessary to get their licenses. The Merchant Marine 
Academy has essentially been capped at a certain amount. Right 
now, we have around 1,000 students. We graduate a little over 
200 every year. So there are some self-limiting issues. We have 
tried to, especially now, we are trying to open up more cadet 
berths that will allow at least the State schools to 
potentially increase enrollment. But, for the most part, I 
think Admiral Craine will be testifying later on and I think he 
will verify this, that it is the school ships, it is the size, 
the age, and the ability of the school ships to handle certain 
capacity. That is one of the biggest limiting factors.
    Mr. LaTourette. Last question. The Chairman had a hearing a 
little earlier on the TWIC card, the transportation worker 
identification card. We had Homeland Security here and a number 
of Members of the Subcommittee expressed some disappointment 
with the progress of that. But in reviewing the testimony of 
the witnesses that will appear after you, there is an assertion 
by some that the requirement to have a TWIC card is perceived 
in the maritime industry, in some sectors, to be a deterrent 
from folks entering the industry.
    Admiral, I invite your comments on that observation that we 
will hear later.
    Admiral Whitehead. Sir, I don't go to any maritime event 
anywhere in the Eighth Coast Guard District where I don't hear 
about the TWIC cards, as I am sure you do here as well. I have 
heard, anecdotally, that this is a deterrent or somewhat of a 
barrier; it is another cost that is associated with it. I was 
very heartened to learn, in a recent briefing that I had, that 
the initial costs that were estimated for a TWIC card have gone 
down substantially, down to, I think, $139. So I am very 
heartened with that respect.
    I don't have any firm data to say that that is a factor, 
but, to be very honest, sir,--we were discussing this earlier--
if I were a merchant mariner, I would be the first one on the 
block to have a TWIC card, because if I have that TWIC card, 
you are very much more marketable in your own industry and in 
other industries because you have got that credential that 
allows you entry from a security perspective. So I know this is 
a little bit of a difficult issue, but just yesterday, I 
believe, in Delaware, we had an enrollment session there. There 
were 25 new credentials that were issued, but there were 1,000 
mariners that were pre-enrolled to get their TWIC card, and I 
thought that was a pretty substantial roll-out of that system.
    Mr. LaTourette. I thank you for that answering. I know that 
when we had the hearing, I could never figure out why it is 
$139. That seems like a strange number to me, but thank you.
    And thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much, Mr. LaTourette.
    Mr. Bishop.
    Mr. Bishop. Thank you, Mr .Chairman. I know this issue of 
shortage of qualified mariners has many dimensions to it, but I 
would like to focus on the LNG piece of it.
    Mr. Connaughton, your testimony indicates that the fact 
that we have few, if any, U.S. flagged LNG vessels--and I know 
you have been successful in developing a few--that U.S. 
mariners are at a strategic disadvantage in a market that is 
going to explode--perhaps I should rephrase that.
    [Laughter.]
    Mr. Bishop.--in a market that is going to expand 
dramatically over the next couple of years, leading potentially 
to safety risks, potentially to security risks. As I say, I 
know that you have done some work; you have been successful in 
bringing some U.S. flagged vessels into this market. What else 
can be done? What other tools perhaps can Congress give the 
Maritime Administration to help develop both U.S. flagged 
vessels and U.S. mariners in this industry?
    Mr. Connaughton. Mr. Bishop, I think the law today allows 
us to pursue voluntary agreements, and I think we have been 
successful in doing so. One of the things, obviously, is that 
we only deal with the offshore facilities; we do not deal with 
onshore or those within the territorial waters. So it is kind 
of limited in scope as to the vessels or the applications that 
we can raise and broach this issue.
    One of the things that we have also been working on and we 
are able to get the State maritime academies, the Merchant 
Marine Academy, and all the labor organization operated 
training schools to come together on a uniform standard of 
training, the same types of what we like to say is a model 
curriculum and career path training path that we will get 
everyone to come together on. It is actually implementing that 
now is what we are trying to focus on, as obviously there is a 
resource issue with that. And it is by making sure we have that 
type of pipeline.
    But I think we have been doing what we have been able to 
do, given the current structure of the law, given the current 
structure of at least the resources that we have available.
    I will mention one thing. We have been made aware that one 
of the things that is an issue is how we treat the income taxes 
of American mariners versus how mariners from other countries 
are dealt with by their own home countries that actually places 
our American mariners at a little bit of a disadvantage when 
you are looking at the general marketplace, and that is 
something we are trying to get a better handle on as well.
    Mr. Bishop. I know this question may go beyond somewhat the 
scope of this hearing, but for both Admiral Whitehead and Mr. 
Connaughton, is the fact that we have a bifurcated approval 
process for LNG facilities--some of them are under the 
jurisdiction of the FERC, others would be under the 
jurisdiction of the Coast Guard and the Maritime 
Administration--does that complicate this issue? I mean, is the 
FERC sufficiently sensitive to this issue of the qualifications 
of the mariners that will be serving on the vessels that will 
be re-gasifying these facilities? Is that something? And, as I 
say, I will put this question to both the Admiral and to you, 
Mr. Connaughton. I mean, is our process the right process? 
Should we not have one entity that is responsible for reviewing 
these applications, as opposed to two, given the fact that we 
have some concern about the qualifications of the mariners on 
these vessels?
    Mr. Connaughton. I will maybe answer this from this 
perspective. The Coast Guard is involved in both sets of 
applications, particularly on the environmental side. We work 
very, very closely with the Coast Guard on our aspect of 
licensing and we are the actual licensing authority for the 
deepwater ports. Because of the law that you all have passed, 
we require and have issues that FERC does not deal with, does 
not raise, and one issue is financial responsibility. We 
require some fairly substantial financial responsibility. 
Because of our law, we require there to be provisions on how 
you will dismantle facilities after you are done.
    But also, due to the law, we raise the issue of American 
flags; we raise the issue of American mariners. That is not 
part of FERC's law, so it doesn't get raised, as far as we are 
aware, in their approval process. So it does make it so there 
obviously is a bifurcated system. The only thing I will mention 
to you is that we are seeing more and more interest in offshore 
facilities due to some of the concerns and questions being 
raised by onshore facilities, but right now there is a 
different system and theirs is just, in many ways--well, they 
don't raise the same issue we do.
    Mr. Bishop. Thank you.
    Admiral Whitehead?
    Admiral Whitehead. Yes, sir. I am glad you raised this 
issue, sir. First, I don't believe that the bifurcated process 
that we have got right now is really a problem. I mean, at 
first, I think, ramping up, there were some issues there, at 
least in the Eighth Coast Guard District, in the Gulf of 
Mexico, where we have 8 to 15, depending on how you count, LNG 
facilities in development. This is now going a little bit more 
smoother.
    The whole issue of LNG permits is really almost equally 
owned, I think, between as an energy requirement, as a 
transportation security requirement. So it brings in both the 
Energy Department, FERC, and the Coast Guard into it.
    I should also say I don't believe FERC is really involved 
in the issue of the qualification of the mariners, and that 
would be more an issue for the Coast Guard, at least from an 
international perspective; and I am very, very concerned about 
that. In the Gulf of Mexico, as I mentioned--and, Mr. Chairman, 
we have discussed this before--right now we have about 261 
annual arrivals of LNG ships into the Gulf of Mexico annually, 
compared to 210 everywhere else in the United States. In fiscal 
year 2008, we are going to go from 261 to about 780 arrivals, 
and in the next four or five years after that to over 6,000 to 
7,000 arrivals a year. So the whole thought of the LNG, the 
growth of LNG, as you mentioned before, is very, very much in 
my concern.
    We are working with Maritime Administration to lay out the 
training standards that would be required for LNG workers under 
the STCW Convention, as well. So I am very, very concerned 
about the capacity, though, and you raised that as well. With 
all these new ships coming into the United States, it will 
require not only training for mariners, it will also require 
additional training for Coast Guard inspectors, who have to be 
very, very technically astute and trained with these brand new 
ships, $250 million vessels that are being constructed just for 
this trade.
    Mr. Cummings. Thank you very much.
    Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Gentlemen, good to have you all with us. The current 
shortage of merchant mariners available to work aboard U.S. 
flagged vessels, do you classify that as a moderate problem or 
a critical problem?
    Admiral Whitehead. Sir, we don't really tally up those 
numbers, but I can tell you I don't go to an event, either in 
the United States, whether it is in the inland waters, whether 
it is a coastal maritime group, or if it is an offshore group, 
where they are not talking about the shortage of mariners and 
getting mariners in there. I think there is a real problem, but 
part of that is based upon how busy the business is. All areas 
of the maritime industry in the United States are tremendously 
busy.
    I was astounded to learn, in the Eighth District, that 
between 2001 and 2007 our number of inspectors for marine 
inspectors had doubled, from 18,000 inspections a year to 
36,000 inspections a year. Now, the year 2001 has nothing to do 
with 9/11. This is not security inspection, these are safety 
inspections; and they have doubled in five years, and that is 
because of the economy and because this business is so 
important to our economy. So it is a real concern to me and I 
hear about this all the time, but I don't really have the 
numbers to tell you.
    I can also tell you that, internationally, I was recently 
overseas and met with five or six different shipowners, and I 
can tell you that they are facing the same exact issues, same 
problems. It is a worldwide demographic issue.
    Mr. Coble. Thank you, Admiral.
    Mr. Connaughton, do you concur with that?
    Mr. Connaughton. Mr. Coble, again, we only have anecdotal 
information, until we get this survey out and actually put some 
numbers to it. We know this is a major, major challenge and 
concern. I think we are just facing a perfect storm. When you 
look at the increased demand for waterborne transportation, the 
fact that we are seeing retirements, we are seeing a lot of 
people go ashore because right now, especially marine 
engineers, any type of technical background, are really getting 
great job offers ashore. And then what is happening worldwide, 
if you look at the numbers worldwide, I will tell you right now 
if our numbers mirror those, we are facing a critical shortage, 
because the numbers worldwide are showing tens of thousands. 
When they do their projections, they are showing tens of 
thousands of licensed officers.
    Mr. Coble. And I think the shortages inevitably negatively 
impact the viability of the U.S. fleet, (a), and negatively 
impact the national security posture of our Country as well.
    Back to the statement I made earlier, gentlemen. Does the 
Federal Government have a responsibility to provide training or 
to ensure the availability of training for mariners working in 
the private sector?
    Mr. Connaughton. Mr. Coble, it has been a cornerstone of 
American maritime policy since 1936 that the Federal Government 
has a vested role, due to safety and security, national defense 
reasons, to have trained mariners, particularly those mariners 
who can be called upon during times of national emergency, 
which even since the 70 years since that Act was passed, we 
have proven time in and time out the American merchant marine 
and its mariners are critical to not just the economic needs of 
this Nation, but also its national defense, and they have 
always been there whenever this Nation has called.
    Mr. Coble. And are you currently authorized to make such 
funding available?
    Mr. Connaughton. Sir, yes. Well, our programs today, our 
principal programs, between the Merchant Marine Academy and the 
six State maritime schools, are really geared towards the deep 
sea mariner and what has been traditionally viewed as the most 
essential for the national security and economic interests. I 
think what we are seeing now is that many of the State schools, 
even our GMAT school, as well as employer-run and labor 
organization-run schools, are starting to deal with some of 
these other issues that are being faced. But, for the most 
part, our programs really have been geared toward the deep sea 
mariner, and we are now trying to make them available to the 
brown-water inland types of fleets.
    Mr. Coble. I thank you.
    Admiral, do you want to add anything to that?
    Admiral Whitehead. No, sir, I don't really have anything to 
add.
    Mr. Coble. Gentlemen, thank you for being with us.
    I yield back, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Mr. Taylor.
    Mr. Taylor. I want to thank our witnesses for being here.
    I am curious, Mr. Connaughton, with the problems that both 
the Navy and the Coast Guard have experienced in acquisitions 
and with the decision by Secretary Winter and I think also by 
the Commandant of the Coast Guard to try to bring the 
acquisition programs back in-house, as opposed to turning them 
over to the private sector, has there been any discussion with 
you, the Merchant Marine Academy or the other maritime 
academies, of explaining this programs as far as design and 
ramping up those acquisition programs to bring back what the 
Navy refers to as a supervisor of shipbuilding? And if so, is 
that complicating the problems that you have outlined in your 
testimony or is that something that is just kind of on the edge 
and only marginally adds to your challenges?
    Mr. Connaughton. Mr. Taylor, we at the Merchant Marine 
Academy and at the State schools, many of them have a sub-major 
or a major that involves shipbuilding and shipyards. However, 
for the most part, almost all the programs, at least that we 
are involved with, are really geared towards making sure we 
have merchant marine officers. We haven't attempted to address 
that type of issue. We recognize very much that many of the 
shipyards are facing some enormous challenges themselves in 
finding people, but that is actually not in the acquisition 
side, but really focused on the actual technical and detail 
issues of the shipyards.
    I just want to mention one thing to you, that I have become 
very diligent in ensuring that we grant few, if not--well, I 
limit the number of waivers that are available to graduates 
from this year from the Merchant Marine Academy--I will be 
looking at the State schools as well--regarding their 
obligations and whether they can go ashore. Because of the 
great job market and the fact that we need people onboard these 
vessels of every size, I am pushing them to go to sea and 
fulfill their obligation. The only exception to that is that I 
have allowed a certain percentage to work in the shipyards 
because of recognizing their issues and problems, and we can't 
have these good challenges of recapitalization and more vessels 
without the yards to produce them. So I have bene allowing some 
graduates to actually go into the shipyards, but we have not 
been focused on the acquisition side, sir.
    Mr. Taylor. Just as a matter of curiosity--and maybe, 
Admiral, this would be better directed at you--I was looking at 
the--and I happen to have been a Member of Congress in the wake 
of the tragic accident outside of Mobile that led to 
Congressman Tauzin and others substantially increasing the 
training for mariners and the hurdles for mariners. I am 
curious, when you talk about the costs of acquiring those 
additional licenses and those additional courses, are the 
people who take these courses, are they eligible for the 
Montgomery GI bill if they are veterans? Is that something that 
the Montgomery GI bill would pay for, as if they were going to 
a community college or normal university?
    Admiral Whitehead. Sir, I am not at all an expert on that, 
but I would believe it is. I think we need to get back to you 
with an answer on that.
    Mr. Taylor. Would you, please?
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 38515.012
    
    Admiral Whitehead. But I think that is something that 
sounds to me like it would clearly fit into the GI bill.
    Mr. Taylor. Okay.
    Admiral Whitehead. We will get back to you on that, sir.
    Mr. Taylor. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you.
    Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Just a quick comment on high schools. I think, Mr. 
Connaughton, you said that you might focus on Mr. Cummings' 
high schools for high school maritime. If you could come over 
to the eastern shore of Maryland, maybe we could double up on 
that.
    In the course of my district work, we have college seminars 
for students twice a year, and we always make sure that we have 
a representative from the Merchant Marine Academy at those 
seminars. I think what we ought to do in addition to that--
maybe, Elijah, you and I can work on this--is have school 
officials in one of those seminars to show what opportunities 
there are out there in the maritime industry, something that we 
don't really place a lot of emphasis on. But there is, I think, 
a valuable reason for doing that because there are many 
students, I just know, that this doesn't fall within their 
frame of reference. If they had the opportunity, they were 
exposed to it, they would take advantage of it, which leads to 
the next question.
    If we can't now expand, for example, the Merchant Marine 
Academy that we have or the six other State academies that we 
have, and we want more high schools to expose students to this 
type of opportunity, that means we really need to find a way to 
start expanding those college facilities so that they can take 
advantage of these opportunities.
    I guess, Mr. Connaughton, how many graduates from the 
Merchant Marine Academy do you know stay in a career in the 
maritime industry? Is there a percentage we could look at?
    Mr. Connaughton. We can give you some of those numbers, 
sir. I don't have them with me. I can tell you, again, from my 
anecdotal information, that the vast majority do stay in.
    Mr. Gilchrest. I see.
    Mr. Connaughton. They may go ashore and assume management 
positions, but, for the most part, I think that almost all stay 
in some sort of maritime-related field.
    Mr. Gilchrest. The other thing, it is my understanding--
although I don't know this, I am not on the Armed Services 
Committee; maybe Gene Taylor can tell me--if you are a graduate 
of West Point or the Naval Academy or the Air Force Academy, it 
is my understanding that the military will send you to graduate 
school or post-graduate school. You can get a PhD while you are 
in the military. When you graduate the Merchant Marine Academy 
and you want to get a further degree, a Master's or a PhD, does 
the maritime industry, in some capacity, pay for that degree?
    Mr. Connaughton. Well, it is not necessarily the advanced 
degree, sir, as much as it is maybe the advanced license. I 
think what the normal career path would be, starting out as a 
Third Mate or Third Assistant, then moving up to Second, First, 
and then Master or a Chief Engineer. I think the challenge that 
everyone is facing today is that it has become very, very 
difficult for mariners to work their way up the what we used to 
call hawsepipe, license-to-license. And also for those mariners 
who are sailing, if they are not a member of a labor 
organization with a training school or they do not have an 
employer to pay for these courses that are required due to 
regulatory----
    Mr. Gilchrest. So if you are a graduate of the maritime 
industry or one of these State schools, to move up the ladder, 
for example, is vastly different than it would be to move up 
the ladder in the Coast Guard or the Navy.
    Mr. Connaughton. Yes, sir, that is correct.
    Mr. Gilchrest. This isn't the same sort of structure. Is 
there any way we could take a look at that structure and begin 
the process of examining it to change it?
    Mr. Connaughton. Well, you know, it is one of these issues, 
sir, where there are regulatory standards that deal with the 
licensing and then there are the educational standards. And 
every one of these graduates from Kings Point and those who 
have the obligation from the State schools, they end up having 
their commission in the military, in the Reserve; they have 
their degree and they have their license; and if you sort of 
look at them, all three have different sorts of career paths 
and different sorts of requirements.
    Mr. Gilchrest. If you look at the number of graduates in 
the maritime industry today, the State schools or Merchant 
Marine Academy, how short are they of meeting demand?
    Mr. Connaughton. It is difficult to actually put a number 
on it. I can tell you that my conversations with particularly 
the State presidents, that they have never seen applications 
like they have seen today, the numbers of people trying to get 
into their, in particular, licensed programs. And when you 
look, anecdotally, at the number of employers coming to the 
career days, trying to attract soon to be new graduates, they 
are seeing record numbers of companies coming and seeking 
graduates, and many graduates having multiple job offers. I 
mean, again, we are going to try to get a handle on some of the 
real numbers, but we have never seen a job market this good, or 
at least have not seen a job market this good in a very long 
time.
    Mr. Gilchrest. That is great. Thank you very much.
    Mr. Taylor. Mr. Gilchrest, would you yield for one minute?
    Mr. Gilchrest. I think I have five minutes left.
    Do I have five minutes left, Elijah?
    Mr. Cummings. Yes.
    Mr. Taylor. Thank you, Mr. Chairman.
    Thank you, Mr. Gilchrest.
    Secretary, I am just curious. Is anyone tracking--I am sort 
of familiar with the offshore supply vessel business and the 
boom and bust with it, so I am curious, is anyone tracking the 
boom in the offshore supply vessel business to what extent that 
is affecting the shortages that are going on right now; and, 
again, it has been very cyclical. If there is a bust, there is 
the boom in hiring for the young people coming out of the 
Merchant Marine Academy, coming out of S.U.N.Y. Does that 
continue or do we get back to a situation where we were a few 
years ago, where we are looking for places for these young 
people to serve?
    Mr. Connaughton. Sir, I think, at $88 a barrel for oil, the 
boom is here. They are going further and further out in the 
exploration for oil. What we are seeing--again, it is anecdotal 
conversations with OMSA, the offshore industry, as well as 
actual individual operators that they are having a very 
difficult time finding people. They are offering incredible 
salaries, and as long as oil stays at the price it is, which, 
given the growth in the economies in China and India, as well 
as the rest of the Far East, we think the boom times are going 
to be here for quite some time, sir. And the salaries and the 
size of the vessels and the complexity of the vessels that are 
in the offshore industry is like something we have never seen 
before; they really are ships. And for the foreseeable future, 
as long as those economies worldwide continue to grow, we think 
the boom time for the offshore industry is going to be there 
and stay here.
    Mr. Taylor. But does that contribute 20 percent of the 
demand, is it 10 percent of the demand, is it half the demand? 
That is what I am trying to get in my mind.
    Mr. Connaughton. I don't know, sir. I actually have 
numbers, aggregate numbers for employment. Again, when I said 
it was about 85 percent right now, just a few months after 
graduation at sea or in the military, we can go back and try to 
break those numbers down and see actually where people are 
working.
    Given that, actually, right now, in the United States, on 
the deepwater side, we do have a sufficient number of mariners, 
I think when we go back and break these numbers down and get 
them back to you, we are going to see that the vast majority of 
the demand for these graduates is offshore as well as inland.
    Mr. Cummings. Mr. Larsen.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Larsen. I am waiting for that clock to reset to get my 
five minutes. Thank you, Mr. Chairman.
    Admiral Whitehead, something specific to Washington State. 
We are obviously looking at, on the Committee, lifestyle 
issues, wage levels, requirements, and so on. I know that the 
Coast Guard is working with the State ferry system to implement 
some regulations on crew endurance and fatigue, and these 
regulations, specifically the requirement that a mariner work 
no more than 12 hours in a 24 hour period, don't always work 
with our State ferry schedule, which is not a tourist 
attraction, but State ferries are an important part of our 
commerce and transportation system.
    I just wanted to get your impression. Is the Coast Guard 
able to be flexible enough with the regulations as they apply 
to different sectors of the maritime industry? Because this 
particular sector of the maritime industry is in fact 
particular largely to Washington State, the largest vehicle 
traffic on ferries, the largest passenger traffic on ferries of 
any ferry system in the Country.
    Admiral Whitehead. Yes, sir. I am generally familiar with 
your ferry system. I know it is a very large one and it plays a 
great role in your economy and, of course, in transportation. 
The crew endurance system, I am glad our people are working the 
your State officials on that as well, because it is a very 
important issue for us.
    Right now, the laws, as I understand them, read basically 
that a mariner can't operate more than 12 hours continuously, 
except in an emergency situation. So I am not sure that we have 
the flexibility to make any changes in that right now, but I am 
quite sure the State ferry system is engaging with our maritime 
licensing people within the Thirteenth Coast Guard District.
    Mr. Larsen. I am sure they are. I know that they are, and I 
just hope that there is enough flexibility found to continue to 
make our ferry system work. It is not easy. Sometimes you just 
can't take an 8 foot skiff from San Juan Island to Anacortes to 
get back home after your shift is done, and that is a 
scheduling problem, obviously, but sometimes that is the way it 
works when you have the ferry system you have.
    Admiral Whitehead. Yes, sir. I should also say that if they 
are on a two-watch schedule, which I believe they are there, 
there is flexibility within the company itself or the State to 
adjust those hours in some way. Many companies--and I am not 
sure about your ferry system--are operating on a square six 
system, where they are doing six hours off and six hours on, 
and there is some flexibility there, providing they don't 
exceed the 12 hours.
    Mr. Larsen. Okay. I just wanted to highlight that.
    The second is for you as well. In your testimony, you talk 
about future improvements that will benefit merchant mariners, 
and the four bullet points read more like a list of goals as 
opposed to specifics, so I was wondering if you could walk 
through a couple of specifics. One is expediting the regulatory 
implementation for training and recruitment, and second is 
improving the mariner credentialing through greater efficiency, 
transparency, and capacity, and continuing to improve 
processes. It sounds a little more goal-oriented than specific 
actions. If you can walk through the actions for us.
    Admiral Whitehead. Yes, sir. I have to tell you I came to 
the Eighth Coast Guard District about a year ago. I was very 
dismayed at the delays that we were seeing at our regional 
examination centers in New Orleans and Houston. We took some 
immediate actions for improvement and now--and I have to tell 
you I was a bit skeptical with the future implementation or 
standing up of the National Maritime Center. My offices have 
been working very closely with the NMC to see exactly what they 
are doing, and I had an opportunity about a month ago to come 
up and visit the in West Virginia. And I have to tell you I 
will certainly not tell you today that we have turned the 
corner on licensing and credentials, some of the delays that we 
have had, but I think the corner is in sight. I am very, very 
heartened by the improvements that we are making and that the 
NMC is making. There is a variety of things that we are trying 
to do at the NMC and the numbers are actually showing up as 
improvements. So there is activity that is showing some real 
improvements.
    But what we are trying to do at the National Maritime 
Center is, first off, to decrease the processing time that is 
involved in getting a mariner his credential, whether it is a 
license or a merchant mariner's document, from the time he 
submits it. Before, we had 17 regional examination centers that 
probably each had their own process for how they would handle a 
license or an MMD application. Now we will be going to a system 
where we have just one location and one process to manage. So I 
thin that will give us some clear improvements there.
    We are trying to also improve consistency of service by 
having centralized evaluators in one place. That will, I think, 
also help us.
    And then, finally, we are improving things with customer 
service, which was an area that was sorely in need of some 
improvement. We have established a new toll-free call center, 
where a mariner can call up this 888 number toll free, they can 
get an application sent to them. Once their application is 
submitted, they can actually monitor the progress of their 
license online, and they can track it and see it, and they can 
talk to a human being and find out exactly where their license 
application is in the system.
    And I mentioned to you that we are getting results. Just in 
the period of time since the NMC has stood up, a matter of 
months, they have reduced the inventory of applications that 
were awaiting processing by 39 percent. In addition, the 
average license renewal has decreased by about 25 percent in 
the time it takes to get out since June.
    I have to tell you that one of the other major things that 
is an improvement, I think, in the Eighth Coast Guard District, 
particularly at New Orleans, but also Memphis and Houston, one 
of the problems we had was our applications were coming in at a 
rate of about 60 percent to 80 percent errors. So the 
applications were not complete when they were turned in. This 
put a little bit of a hardship on the mariner in the sense that 
he or she might be going to sea, and they would mail in their 
application and there was maybe a block that needed to be 
filled in or some document that wasn't here, and then they are 
gone for maybe several months, potentially, and then they come 
back and get the thing, then they mail it off again; and it was 
this back and forth. So it was a real problem.
    We are now going to assist them where, in the Eighth 
District, we have created a CD wizard application, so you can 
plug the CD in, and if you forget to fill in something, it will 
highlight it in red, just as you would see if you ordered 
something on line and you forgot to put your telephone number 
in it. So we are going to that and the NMC is now seeking 
additional funding to be able to improve their licensing 
documentation computer system to give them greater flexibility 
and speed up their process time as well.
    So I think we are really seeing some very, very important 
changes, and with that comes additional people, additional 
people that have not been there in the past that will be able 
to, I think, handle the capacity much better. I am very 
optimistic.
    Mr. Larsen. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    I ask unanimous consent that Mr. Boustany may sit with the 
Subcommittee and participate in this hearing. Without 
objection, so ordered.
    Mr. Boustany, do you have questions?
    Mr. Boustany. Thank you, Mr. Chairman. Having just come in, 
I don't have any specific questions at this time. I just want 
to say that workforce issues in the maritime industry, in my 
home State of Louisiana, we have reached a crisis stage. I 
represent coastal Louisiana, two of the parishes in coastal 
Louisiana. I have visited a number of our facilities, and this 
is something that is urgent. It is a complex problem and I 
hopeful that we can start looking toward solutions as we go 
forward.
    I want to thank the Subcommittee Chairman for holding this 
hearing and for allowing me to sit in.
    Mr. Cummings. Thank you very much.
    Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman. Just three quick 
questions.
    In the information provided, you talk about a list of 
individual companies that provided partnership programs. Could 
you please provide this Committee the contact information and 
the location of those individual companies?
    Mr. Connaughton. Yes, ma'am, we will provide those to you.
    Ms. Richardson. My second question is it also is noted in 
the information that the Seafarers International Union in 
Maryland has a pretty extensive apprenticeship program. Could 
you also provide to this Committee for the other locations 
where the Seafarers are located? For example, for me in 
California, do they have a similar program? And, if not, what 
we could do to make that happen?
    And, number three, you also noted in the information that 
there are 250 training providers. If we could also receive that 
information of contacts and locations.
    Mr. Connaughton. Sure, ma'am. We will get you all of those.
    Ms. Richardson. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much, Ms. Richardson.
    Let me just ask. I want to go back to you, Admiral 
Whitehead. In the next panel there is going to be some 
discussion by Mr. Michael Rodriguez, Assistant to the President 
of Masters, Mates, and Pilots Union, about the way mariners are 
treated, and, as you know, the conduct of the Coast Guard's ALJ 
system has been, and continues to be, of great concern to the 
entire Subcommittee. One witness write in testimony that the 
Coast Guard is unwilling to fully inform mariners of the nature 
of an investigation and their rights during an investigation. 
Also, the testimony suggests that the information given by the 
mariner in an accident investigation could be used to prosecute 
the mariner. Is this common practice? The Coast Guard has been 
required to cite the Miranda rights to a mariner when their 
statements may be used against them.
    And so that you understand the relevance, in Mr. 
Rodriguez's testimony, what he is saying is that because of the 
way mariners are treated, it is his belief that that may deter 
them from wanting to become mariners. In other words, they 
don't want to suddenly become criminals when they are trying to 
pursue their life pursuits, and they feel, quite often, that 
they have been treated unfairly.
    Now, this doesn't just come from Mr. Rodriguez. As you 
know, we have had an extensive hearing on ALJ and there has 
been no subject that this Subcommittee has addressed that has 
drawn more interest than the fairness of hearings and the ALJ 
process. So would you comment on that for me, please?
    Admiral Whitehead. Yes, sir. As I understand it, there are 
about 5,600 cases a year that are brought from the Coast Guard 
that could potentially result in an administrative hearing, and 
of those, most of those are handled, let's say, in-house by the 
Coast Guard, so that there are only around 1,100 that even make 
its way up to the ALJs. And then, at that point, most are 
handled in some way that don't result actually in a hearing, so 
that there are only a couple hundred hearings a year.
    With respect to the potential prosecutions, there are some 
laws that are old on the books and some newer ones that 
certainly require the prosecution of mariners if there is a 
criminal violation, and cases that come to my mind are cases 
involving environmental crimes. Should a case like that come 
up, I am quite sure that the Coast Guard ourselves would not 
prosecute an individual criminally; that would go to the local 
U.S. attorney, and at that point we would turn it over to the 
U.S. attorney. And whether the U.S. attorney could handle those 
types of cases, it is a selective sort of thing based on their 
workload, I believe.
    Mr. Cummings. But you didn't address my question. And I 
realize that you may not have been prepared for that, but I 
would really like for you to look into that issue, and I will 
put it in writing, the issue of Miranda rights and a lot of 
times mariners feeling that they have been placed in a position 
where they are damned if they do and damned if they don't, and 
they think they are trying to work out issues and it is like a 
``gotcha'' kind of situation, as opposed to a situation where 
there is some leeway, where it could be worked out; the next 
thing you know, they are hauled before an ALJ hearing and have 
not been even given the Miranda rights.
    As you know, we are looking seriously and, by the way, in a 
bipartisan way, in removing the ALJ from under the Coast Guard. 
We are just looking at trying to figure out the best way to do 
it. But, in the meantime, we just want to make sure that 
mariners are treated fairly and that we are not causing folks 
not to come into this profession because of the belief that 
they might be treated that way.
    Admiral Whitehead. Yes, sir. I would be glad to get back to 
you on the record with that, sir, but I should say that unless 
things have changed, I used to be an investigator myself, many 
years ago, and if there were some belief that there was a 
criminal violation involved, I am quite sure our Coast Guard 
investigator would give the appropriate warnings.
    Mr. Cummings. All right. And the other thing that we will 
do is we are going to make sure that you get a copy of the 
relevant testimony so that you can--sometimes I think we sort 
of talk passed each other--so that you will know what the 
people who are subject to the Coast Guard are feeling and 
saying. Okay?
    Admiral Whitehead. I would be happy to do that, sir.
    Mr. Cummings. Thank you very much, both of you. We really 
appreciate it. Thank you.
    If our next panel would come forth now, please.
    Mr. Michael Rodriguez is the Assistant to the President of 
the Masters, Mates, and Pilots Union; Mr. Carl Annessa, 
President for Operations, Hornbeck Offshore Services; Ms. Cathy 
Hammond, Chief Executive Officer for Inland Marine Services 
with the American Waterways Operators; Admiral John Craine, the 
President of Maritime College of New York; Captain William 
Beacom, Navigation Consultant and Professional Mariner; and Mr. 
Augustin Tellez, Executive Vice President of Seafarers 
International Union.
    First of all, thank you all for being with us. It is my 
understanding that we are going to have a vote in about 10 
minutes. We have got six witnesses, so let's try to adhere, as 
close we can, to the five minute rule. Thank you. And if you 
want to take less, you are welcome.
    [Laughter.]

  TESTIMONY OF MICHAEL RODRIGUEZ, EXECUTIVE ASSISTANT TO THE 
 PRESIDENT, MASTERS, MATES AND PILOTS; CARL ANNESSA, COO/VICE 
   PRESIDENT FOR OPERATIONS, HORNBECK OFFSHORE SERVICES FOR 
OFFSHORE MARINE SERVICE ASSOCIATION; CATHY HAMMOND, CEO, INLAND 
 MARINE SERVICE FOR AMERICAN WATERWAY OPERATORS; ADMIRAL JOHN 
CRAINE, JR. USN, RETIRED, PRESIDENT, S.U.N.Y. MARITIME COLLEGE; 
  CAPTAIN WILLIAM BEACOM, NAVIGATION CONSULTANT, PROFESSIONAL 
 MARINER; AUGUSTIN TELLEZ, EXECUTIVE VICE PRESIDENT, SEAFARERS 
                      INTERNATIONAL UNION

    Mr. Rodriguez. Thank you, Mr. Chairman. I will go through 
this as quickly as possible, in the interest of time.
    Good morning, Mr. Chairman and Members of the Subcommittee. 
I am Michael Rodriguez, Executive Assistant to the President of 
the International Organization of Masters, Mates, and Pilots. I 
began my career in the maritime industry as a graduate of the 
United States Merchant Marine Academy in 1979. I sailed as a 
deck officer aboard U.S. flagged vessels until 1995. I am an 
officer of the Naval Reserve and a veteran of Operation 
Enduring Freedom. Thank you for inviting me to appear today.
    America's mariners are an important national asset, an 
asset that our Nation cannot afford to lose. Mariners have 
served our armed forces; they are supporting our troops in the 
Middle East. As Naval officers, mariners have performed on 
active duty at sea, ashore, and as harbor pilots. American 
mariners play a role in relief and humanitarian efforts. 
Following the attack on the World Trade Center, mariners 
rapidly mobilized to evacuate thousands from lower Manhattan. 
In 2005, they helped provide relief to the victims of the Gulf 
hurricanes and the tsunami.
    A strong commercial fleet provides good paying jobs and is 
an essential part of maintaining these capabilities and 
attracting young people to our industry. To this purpose, there 
are three fundamental elements of maritime policy that Congress 
and the Administration must continue to support. First, the 
Maritime Security Program is crucial toward maintaining a U.S. 
flagged fleet and an American presence in world shipping 
markets and opportunity for mariners; second, the Jones Act is 
central to our economic security and an important source of 
jobs; and, third, our cargo preference laws must be fully 
enforced. They provide an important incentive for shipowners to 
keep their ships under the American flag.
    Mariners face many challenges: they endure long separations 
from home, extreme working environments, and the dangers of the 
sea. They have always accepted these difficulties, but there 
are aspects of their work that governments and industry can 
manage.
    Criminalization of the unintentional acts of mariners 
following accidents is a human rights issue as well as a 
recruiting and retention issue. The maritime community 
recognizes that mariners, subject to the laws of many 
jurisdictions, must have special legal protections under 
uniform international standards. Regrettably, the United States 
opposes the international community's work on this issue.
    Mariners live where they work. They often sleep only a few 
feet away from engine rooms, cargo spaces, and machinery. 
Quality rest is essential for a safe workplace, stress relief, 
and overall health. A recent survey reported that one in four 
mariners said they had fallen asleep on watch. Nearly 50 
percent of mariners reported work weeks of 85 hours or longer. 
Almost 50 percent of mariners believe their working hours are a 
danger to their personal safety. In the short term, stress and 
fatigue cause accidents. In the long-term, the effects are poor 
health and reduced life expectancy.
    Maritime security regulations have not only increased the 
workload on our mariners, they have cut off mariners' ties with 
the shore. Unfortunately, in many ports around the United 
States, mariners, labor representatives, visitors, and welfare 
service providers are denied access under the pretense of 
maritime security. The right to shore leave is a part of the 
International Ship and Port Facility Code, which is a treaty 
obligation of the United States. However, this important human 
right is often ignored.
    The Members of this Subcommittee are well aware of the 
problems with the TWIC program. There are two issues that most 
directly affect the maritime workforce. First, the program goes 
well beyond what Congress originally intended and it 
unnecessarily burdens mariners. For instance, mariners or 
prospective mariners who have committed one of the 
disqualifying crimes will be denied a TWIC until they prove 
that they are not a terrorism threat. Many of these individuals 
will leave the industry rather than endure this bureaucratic 
exercise. Second, a TWIC will not guarantee access for mariners 
to shore leave because the TWIC, a Federal security program, 
does not preempt State, local, or facility access control 
measures.
    Mr. Chairman, the United States must stop treating mariners 
like criminals and begin to treat them like the national asset 
that they are. They are dedicated professionals performing 
services essential to our Nation's economic and national 
security. If we can manage and develop this national asset 
appropriately, we have a chance to compete for the best and 
brightest of our young people.
    This concludes my remarks, Mr. Chairman. I would be happy 
to answer your questions.
    Mr. Cummings. Mr. Annessa?
    Mr. Annessa. Thank you for allowing me to testify on this 
subject this morning. My name is Carl Annessa. I am the 
Executive Vice President and Chief Operating Officer of 
Hornbeck Offshore Services, a publicly traded company which 
owns and operates vessels that support the offshore and the gas 
industry. Today, I am testifying on behalf of the Offshore 
Marine Service Association. OMSA's member companies are the 
lifeline to America's offshore energy resources, providing the 
U.S. flagged vessels that move all of the equipment and most of 
the workers needed to find and produce our Nation's offshore 
oil and gas resources.
    The topic of this hearing is important and timely: the 
offshore work boat sectors and the process of replacing and 
upgrading our fleet, building an estimated 150 offshore service 
vessels over the next five years. A recent OMSA survey 
indicates that our members will need about 3600 mariners to 
crew these new state-of-the-art vessels. Given the time that it 
takes for a mariner to work his or her way up to becoming a 
licensed captain or a licensed engineer, building our workforce 
is as important an industry priority as is building our new 
vessels.
    Our industry is concerned about the licensing process. The 
burdens that the International Standards for Training, 
Certification, and Watchkeeping Code have placed on our 
mariners are challenging. The STCW, which sets worldwide 
standards for mariners, was developed for large ships on ocean 
voyages. However, more than 90 percent of the U.S. flagged 
vessels that fall under the requirements of the STCW are 
smaller coastal and offshore boats. Increasingly, the Coast 
Guard's interpretation of STCW's mandates are out of synch with 
the needs of the vast majority of American mariners who fall 
under STCW.
    The Coast Guard does deserve credit, however, for its 
efforts to revamp its licensing and documentation system, and 
to cut down somewhat on the delays wrought by the 
implementation of STCW. From every indication, and some of 
those that you heard a minute ago from Admiral Whitehead, those 
reforms are beginning to take hold and beginning to improve the 
results of the licensing process that our employees face. 
However, the licensing process was developed for another age, 
when mariners had different and less complex needs. The current 
reforms may only improve the efficiency of an antiquated 
system. The Coast Guard needs to continue to strive for the 
modernization of the entire process to meet the needs of 
mariners today. If that takes additional resources, we would 
certainly encourage Congress to fund it.
    Another challenge that we face, again, as you have heard, 
is the aging of our workforce. A recent OMSA survey of member 
companies has determined that nearly half of our licensed 
officers are over the age of 50. That means, in five or ten 
years, our most experienced captains and engineers will be 
approaching retirement. Since it may take at least that many 
years for a mariner to rise to a senior position of 
responsibility in one of our vessels, we can't afford to waste 
any time in addressing that future and impending shortfall.
    The Coast Guard is currently working on new fitness-for-
duty standards. We need to make sure that, as these medical 
standards are implemented, that they make sense and don't 
inadvertently cut productive careers short. Mariner wellness 
programs will become more and more important to our industry 
and the marine community at large. Congress should consider 
funding a program that helps promote wellness in the maritime 
industry. OMSA would welcome the chance to participate in a 
pilot project toward that end.
    The foregoing standard industry has a true strength: in the 
offshore work boat industry, we can offer Americans the 
opportunity to earn a very good living at a skilled profession. 
We can take young men and women and give them a clear career 
ladder that will move them from positions of entry level, 
unskilled laborers to senior positions as licensed masters and 
licensed engineers of multi-million dollar vessels. We will 
provide the training the mariner needs to advance to a job that 
could pay a six figure salary. We also offer a very safe 
workplace, one that is statistically safer than most any other 
workplace in America, according to OMSA data.
    The nature of the work can be hard and stressful, but I 
think our industry does offer something that is a fundamental 
American value, and that is opportunity. Individuals who come 
to work in our industry know, the day they first walk aboard 
one of our vessels, that their ability to succeed depends on 
their skill, their energy, and their willingness to work hard. 
We think that is a very American concept and worth celebrating 
and defending. Ultimately, we believe that that value will be 
the source of our success as an industry.
    We certain welcome the role of the United States Coast 
Guard as a partner in our efforts to streamline mariner 
education, licensing, and career development, but insist that 
they will so continue in that function, that they be adequately 
motivated, staffed, and funded for their role in that process.
    Thank you very much, and I look forward to your questions.
    Mr. Cummings. Thank you very much.
    Ms. Hammond.
    Ms. Hammond. Good morning. I am Cathy Hammond, CEO of 
Inland Marine Service in Hebron, Kentucky. We are a privately 
held company in the marine business since 1981. Unlike many 
companies in our industry, Inland Marine Service does not own 
towboats or barges. We provide the personnel to operate inland 
towboats for our client companies. We recruit, train, and 
dispatch the crew members for 19 boats operating on the 
Mississippi and Ohio River systems.
    I am testifying this morning on behalf of the American 
Waterways Operators. AWO is a national trade association for 
the tugboat, towboat, and barge industry, an industry that 
provides family wage jobs for more than 30,000 mariners in the 
brown-and blue-water trade.
    I love this industry, I believe in it, and I am proud of 
it. The towing industry provides great opportunities for young 
people looking to start a career or other Americans looking to 
make a career change. A college degree is not required. A young 
person can begin earning a living wage right away, and six 
figure incomes are achievable for those motivated to become 
pilots, mates, and captains.
    Despite the opportunities our industry offers, a career on 
the water is not for everyone. Today, the towing industry faces 
a critical shortage of vessel personnel. This is a problem at 
two levels: first, attracting new people to the industry and 
convincing them to make their career on the water; and, second, 
replacing retiring captains and replenishing critical wheel 
house positions.
    My written testimony describes in some detail the reasons 
for this situation. For now, let me simply say that there are 
no silver bullets that will solve the industry's personnel 
shortage and ensure the necessary supply of well qualified, 
well trained mariners to crew our vessels and meet our Nation's 
current and future transportation needs. Our industry 
recognizes that companies themselves bear the primary 
responsibility for making our industry as attractive as 
possible to current and prospective employees, and being 
creative in our recruitment and retention programs. We are 
working hard to do just that.
    We also believe that there is a role for Congress and the 
Federal agencies to play. The place to start is by eliminating 
government-imposed obstacles that make the job of attracting 
and retaining qualified crew members more difficult. We offer 
the following recommendations. First, government policies and 
regulations such as the TWIC program that established barriers 
for new hires should be modified. We urgently request your 
support for including a practical interim work authority 
provision for new hires in the manager's amendment to the Coast 
Guard authorization bill.
    Second, the Coast Guard should carefully review its 
protocols for interacting with vessel personnel and ensure that 
a stated objective of honoring the mariner is reflected in its 
dealings with the professionals who crew our boats. Routine 
interaction with vessel personnel should not be conducted in 
the same manner as a for-cause law enforcement boarding.
    Third, the Coast Guard should make changes to its licensing 
system that eliminates obstacles to advancement while ensuring 
high standards of safety. Congress should monitor the Coast 
Guard's ongoing effort to restructure and centralize the 
licensing program, and ensure that this much needed effort 
truly achieves its intended goals.
    Fourth, the Maritime Administration should recognize the 
changes in the domestic merchant marine and ensure that its 
publications reflect the fact that the majority of the onboard 
jobs today are on so-called small boats or small vessels such 
as towboats and tugboats.
    Fifth, Congress and the Maritime Administration should 
ensure that the U.S. Merchant Marine Academy modernizes its 
focus to reflect the domestic fleet today and help prepare 
graduates for jobs in the towing industry.
    Finally, we believe MARAD can also play a role in helping 
companies and mariners understand and tap into existing 
government resources or public-private partnerships for 
training and education.
    Mr. Chairman, the personnel shortage is a complex problem 
and there are no simple solutions. However, if government can 
take these items as a work list and industry redoubles its 
efforts to improve crew member recruiting and retention, 
together we can make a meaningful difference in tackling this 
important and growing problem. Thank you very much.
    Mr. Cummings. Thank you very much.
    Admiral Craine.
    Admiral Craine. Mr. Chairman, distinguished Members of this 
Subcommittee, thank you for the opportunity to testify today. 
While I am with the State University of New York Maritime 
College, I am here to represent all of the State maritime 
academies. And if I can convey only one message to you today, 
it is this: the State maritime academies--from Maine, 
Massachusetts, New York, Texas, California, Great Lakes in 
Michigan--produce the vast majority of all new licensed 
officers in the United States each year. These colleges are an 
extraordinary value to our Nation, but they need more 
government support to meet the growing demand for merchant 
officers who play such a critical role in our national 
security.
    Last year, these State academies produced 70 percent of all 
new licensed officers. This is up from 51 percent just four 
years ago, and we expect this upward trend to continue. There 
is tremendous demand, as we have already heard, for licensed 
officers. Many Federal agencies compete for our graduates along 
with the growing need and demand from the commercial industry. 
Former Commander of the Military Sealift Command, Admiral 
Brewer, stated that our national military sealift requirements 
cannot be met without these graduates.
    The State maritime academies operate under what is 
essentially a Federal mandate and are accountable to Congress, 
the Maritime Administration, the Coast Guard, and the 
International Maritime Organization for the education and 
training of our licensed students. Yet, only 3 percent of our 
annual funding comes from the Federal Government. The annual 
Federal contribution to the State academies has ranged from $10 
million to $13 million a year for all six State academies 
combined. The amount provided today is less than it was 15 
years ago in real dollars, a 25 percent decrease, while 
inflation for higher education has gone up by 70 percent.
    One of our most valuable assets is our federally provided 
training ships. These vessels provide invaluable, real-world, 
hands-on training to our students. The ships are generally 
older, former Naval or cargo vessels that need to be converted 
for school ship use. A ship assigned to Texas Maritime is not 
deployable as a training ship due to lack of Federal funds to 
convert it for school use. Three other ships, while usable, are 
still awaiting additional Federal dollars to complete their 
conversions. The oldest of these six ships is 46 years old and 
will soon need to be replaced. These ships are used by the 
Federal Government for other global and national emergencies. 
Half of them were activated by the President for humanitarian 
use following Hurricanes Katrina and Rita. These ships should 
be considered national assets and funded accordingly.
    Recruiting initiatives play a critical and crucial role in 
attracting young men and women into a maritime career. We ask a 
great deal of our students, who take in excess of 160 semester 
credit hours in order to graduate, versus a norm of 120 to 130 
for other college students, largely because of the merchant 
marine license courses that are required by the Federal 
Government to graduate. They also spend in excess of six months 
at sea during their summer and winter breaks.
    The State maritime academies offer in-State tuition or a 
reduced regional tuition to students from other States, to all 
other States, as an incentive to attract more prospective 
students. We are also working not only with high schools, but 
with elementary schools to get young students interested in a 
maritime career. The Federal Government also has a student 
incentive program that provides funds directly to students to 
offset the cost of uniforms, books, and subsistence in return 
for a service obligation in the merchant marine reserve. 
Unfortunately, payments in this program have not kept up with 
inflation and it is not the incentive that it used to be.
    Mr. Chairman, we will continue to carry out our mission of 
recruiting--which is our toughest job--educating, and placing 
the world's best trained, licensed mariners, but we need more 
Federal support in order to meet the growing demand for 
licensed merchant officers, for our training ships, our license 
programs, and the student incentive program. A stronger 
partnership with the Federal Government will better enable us 
to serve the needs of our Nation and our world.
    Mr. Chairman, I thank you for this opportunity and I look 
forward to any questions this Subcommittee might have.
    Mr. Cummings. Thank you very much to the panel and our 
guests. It is my plan to--we have three votes, one fifteen and 
two fives, and so five minutes. So what I plan to do is 
reconvene at 12:30. But I would like to get the testimony of 
our two witnesses in. We have exactly 11 minutes and 27 
seconds.
    Captain Beacom.
    Captain Beacom. My name is Captain Bill Beacom, and I 
appreciate the opportunity to appear before the Committee. I am 
a lifetime mariner, second generation. I was on boats by the 
time I was five years old. I got my first look at a wheelhouse 
all by myself when I was 17 and became a licensed mariner when 
I was 20. I am currently in my eleventh issue. I have run all 
of the rivers that the Admiral mentioned before and dozens 
more.
    The problem that we face with the industry is that people 
like me can't come up with a viable reason or a logical reason 
why anybody should join the industry, and we are the 
recruiters. What we find ourselves doing is trying to convince 
somebody that has got a certain amount of logic into joining 
something that is illogical. The pay looks really good on 
paper, but when you get on the vessels, you find that they can 
work you up to 14 hours a day the whole time you are on there, 
without any intervention by any regulatory agency or anything 
else. In a 30-day period, you can actually put in 10 42-hour 
weeks, and it isn't conducive to that.
    Now, you know, we always figure that we should have to take 
our hard knocks, you know, pay our dues, but paying our dues 
just doesn't get us anywhere because, when you become a pilot, 
you would think that you wouldn't have to work over 12 hours 
out of a 24-hour period because that is what the law says. But 
the law was in place long before we had 9/11, and since 9/11--
even though before that we already had watch change 
conferences, which takes about an hour a day, when the two 
people have to be in the wheelhouse at the same time. And, by 
the way, any kind of a management system that requires both the 
pilot and the captain to be working at the same time breaks the 
law, just by the zero sum. If you get 24 hours and you have got 
to split it up into watches, and nobody can work any more than 
12 hours, any time both are required to be on watch at the same 
time, you break the law. So the watch change conference, by the 
letter of law, breaks it.
    Now we come along with our responsible carrier program, and 
the captains and the pilots were pretty well in a position that 
they couldn't argue with it, but they had to enforce it, and 
that takes time besides navigation time. Then 9/11 came along 
and the captain became the vessel security officer. Now, in the 
Federal Register it said it probably wouldn't take over two and 
a half hours a day to fulfill the requirements of the vessel 
safety security officer, but the companies are very proud of 
the fact that it only takes about 40 minutes, but that 40 
minutes is also outside the 12 hour law.
    And then we have the responsibilities of the crew endurance 
management system, not counting all of the paperwork stuff that 
we have to do in between. So you don't graduate from a 14-hour 
day to a 12-hour day, you graduate from a 14-hour day to 
another 14-hour day. And two of those hours are outside of the 
law. But do you dare say anything? No. Because, if you do, then 
you are considered to be a rabble rouser and you will be 
looking for other employment; and that is exactly why the 
people in this industry are 50 or 55 years old, because that is 
the only thing they know how to do, and they are just 
tolerating this onerous load that you have put upon us, and 
they are just working until the end of it, and very few of them 
stay over.
    Now, the wages are way up and it looks really good in the 
long-term, but a survey was done by John Sutton, the President 
of AIM, in 1998, in which he concluded that the average life 
expectancy of a towboat captain is 57 years and 8 months. And I 
brought that survey up to date, to 2004, and it stayed about 
the same; it might have even went down a little bit.
    So there is really nothing that would attract a person to 
this industry. We are overloaded; they have cut the crews on 
the boats. Not only have they cut the crews, the turnover has 
made it to where less of the people in the crews have 
experience. Because there is only a small amount of the people 
in the crews that have experience, they are worked to death; 
and a 14-hour day sometimes becomes a relief, because if you 
have two or three people on the boat that don't have the 
experience, then you have to make up for it.
    So what we really need is enforcement of the regulations 
that we have, and we need some new manning requirements.
    Mr. Cummings. You convinced me.
    Mr. Tellez.
    Mr. Tellez. Thank you, Mr. Chairman. Since I drew the short 
straw, I will try to be as quick as possible.
    Thank you for the opportunity, and welcome, to Ms. 
Richardson, to our world.
    I am Augustin Tellez, commonly known as Augie Tellez. I am 
the Executive Vice President of the Seafarers A&G District. 
Along with our affiliates, including the AMO, we are the 
largest representative of mariners employed throughout the 
entire spectrum in the maritime world.
    Quick snapshots, since we are pressed for time.
    Any discussion of manpower issues has to be taken in the 
context, first off, in national security. If you talk to a 
logistician, he will tell you the strategist plans the war, the 
tactician fights the war, and the logistician wins the war, and 
the way he does that is by the successful movement and 
sustainment of movement of vast volumes of cargo and material 
and troops required to win the battle. The major engine fueling 
that successful effort is the United States merchant marine and 
the manpower pool required to staff it.
    Besides the importance of the vessels themselves, more 
importantly, the U.S. commercial fleet, a viable and effective 
U.S. commercial fleet is a key component because it provides 
the employment base by which everything revolves.
    The other part of that merchant marine effort is the 
organic fleet or the military ships, including MARAD's RRF 
vessels. One of the lessons learned during the first Gulf War 
was that the Nation could not depend on laid-up old vessels 
without crews to be activated in a short period of time and go 
to war. We learned that lesson very quickly. Besides mechanical 
failures, it taxed the manpower pool employed at that time.
    In order to address those issues, we changed the way we did 
business and we came up with the RRF ROS program, which puts a 
cadre of crew members on all those laid-up vessels to not only 
maintain them and keep them ready, but also to provide a 
nucleus crew for any activation crew.
    Having said that, the commercial fleet being so important, 
we would like to thank this Committee, this Congress for their 
support and their continued support for programs like the 
Maritime Security Program, Cargo Preference, and all the other 
programs and policies that keep that commercial fleet viable.
    It is also amazing that, having talked about the importance 
of the RRF vessel, we are a little dismayed at the government's 
efforts, in order to realize some short-term financial savings, 
it is looking to reduce and eliminate entirely some of those 
RRF vessels and their crews, which exasperates the problem we 
are here talking about because it eliminates employment base 
and jobs.
    In general, the Union is not experiencing the shortage, at 
least on the deep sea side that we are here talking about. Part 
of that is because of the viability of the commercial fleet. It 
is also because we meet the challenges of the manpower issues 
through the aforementioned school in Piney Point. It just 
celebrated its fortieth anniversary and in that time has 
graduated 22,000 apprentices, new recruits. It has also 
graduated 100,000 upgraders and issued to them 238,000 
certificates, many of them Coast Guard certified and STCW 
certified.
    In anticipation of the boom in the Gulf mentioned by Mr. 
Taylor, a few years ago we met with our contracted companies 
and came up and developed an inland license program in 
conjunction with our contracted companies. They support it, 
they sponsor it. That, augmented by an inland apprentice 
program, creates kind of a cradle-to-the-grave situation where 
we recruit people specifically for that industry, ultimate 
objective of getting their license.
    In conclusion, let me just say the manpower issue, any 
manpower issue can be handled as long as you control and manage 
the pipeline efficiently. And as long as there are jobs, 
viable, effective jobs out there, you can manage any--meet any 
challenge or manpower issue.
    Also, before closing, my one comment on TWIC. Everyone else 
made their comments on TWIC. I find it amazing that we are 
sitting here talking about TWIC and imposing more stringent 
regulations and background checks on the most regulated people 
already, American citizens, and the very vessels that Mr. 
Bishop was talking about are transporting LNG gas into our 
Country with who knows who on those ships.
    Thank you for your time.
    Mr. Cummings. Thank you very much. We will see you all at 
12:30.
    [Recess.]
    Mr. Cummings. Thank you all very much.
    Admiral Craine, can you briefly speak about the partnership 
that your college is establishing with the several maritime 
high schools? And can you indicate whether you believe ties 
between such high schools and the Nation's maritime colleges 
could be increased to create a seamless educational path to 
draw students from high schools to the maritime academies?
    Admiral Craine. Yes, sir, I would be happy to do that. The 
short answer to your question is yes. We are reaching out to 
these high schools to see what we can do to make it not only 
easier for these students to be able to come to our schools, 
but to get these students interested. As I mentioned in my 
testimony, recruiting is tough to try and convince a young 17 
or 18 year old that life at sea and the maritime industry is 
something for them.
    One of the things that we're doing next Tuesday, I will be 
with Art Sulzer, Captain Sulzer, who will be testifying in the 
next panel, and his school that he represents in Philadelphia, 
the one that you mentioned_the Maritime Industries Academy in 
Baltimore_along with two others, on Tuesday to talk about what 
we can do to provide curriculum to their schools that will 
provide a broader overview of what the opportunities are, so 
that the students can actually get started before they come.
    Mr. Cummings. It seems like in other industries, there has 
been more of an effort to try to get to our kids at a young 
age, high school age. Why does it seem like we are a little 
behind with regard to this industry? Why do you think that is?
    Admiral Craine. I don't know if we are behind or whether 
these ideas of partnering, it is just a new, it is a great idea 
that we need, perhaps we could have been doing before. But we 
have realized that we need to reach out to high schools. And it 
is not just the rising seniors or those that are graduating, 
but we have to start at a younger age.
    When I was the chief of education and training for the 
Navy, when I was on active duty, we had a program called 
Starbase Atlantis, where we learned that it was at the fifth 
grade level, if we were going to attract youngsters to have an 
interest in the sciences and the math that we needed to get 
them at the fifth grade level. That was the knee in the curve, 
where you could get the biggest bang for the buck. And we are 
doing that on our campus and I know the others are as well. We 
have our oceanography, meteorology professors, science 
professors, working with elementary schools. Just two weeks ago 
we honored Eleanor Roosevelt Intermediate School from 
Washington Heights in Manhattan as one of those schools that 
has been working with us.
    And there are others. It is not something that is new to 
us, but the formal relationship we are finding is very helpful. 
We worked an agreement last week with Valley Forge Military 
Academy to accept any student that was accepted to their junior 
college, they have a high school and then a junior college. Any 
student that was accepted to their junior college would 
automatically be accepted to ours. Every day we are looking for 
new opportunities to establish these partnerships. We are 
really excited about the one that we are going to be talking 
about next week. We have three students from the Harbor School 
in Manhattan. They are freshmen, but they seem to be doing 
well, and we want more of them.
    Mr. Cummings. That is wonderful.
    Mr. Rodriguez, can you describe the extent to which the 
criminalization of mariners, you think, is affecting the 
recruitment? When I talked to the Admiral a little earlier in 
the first panel, he didn't seem to think that, well, I kind of 
got the impression that he didn't think that it was as bad as 
you make it sound in your testimony. Could you comment on that, 
please?
    Mr. Rodriguez. Yes, Mr. Chairman. Let me begin my answer by 
pointing out, what I have here is a report that was done back 
in May of 2002. I remember this effort because I was part of 
it, it was a very broad-based effort at coming up with some of 
the answers to the questions we are asking today in this 
hearing. And one of them is, one of the aspects of life at sea 
that, if I can take a moment to describe, these are very high 
level people from industry, from labor, from the Coast Guard, 
from the Maritime Administration, we all got together. We 
started at Kings Point in the spring of 2001. We had a number 
of meetings, things, as I recall, got a little overcome by the 
events of September 2001.
    But one of the aspects that this very broad-based group 
came up with, one of the problems that we had recruiting and 
retaining people into our industry, was criminalization. And 
that is in this report, and I would like to provide that for 
you.
    Over the years that I have been involved in the maritime 
industry, there has been more and more regulation put upon us. 
Mariners can be prosecuted under a number of different Federal 
statutes for discharging oil into the water, these are mainly 
environmental protection laws. And I can tell you that the 
level of morale on board ships has been affected. If you can 
imagine, it is not just the person who is being investigated or 
prosecuted directly who is affected; you have this whole 
mindset of the crew, particularly amongst the officers, that 
every time they go up that gangway, they may be liable for 
something that happens.
    So I hear about it. I worked at one time in the Merchant 
Marine Academy handling the training for a lot of the cadets 
who came through there. Some of the young graduates who had 
problems, they had an incident, would call me in my new job and 
say, I am thinking about getting out of the business: I got 
investigated. So it is affecting the morale of this industry. I 
would venture to say that it goes right from the inland people 
to the deep sea folks.
    Mr. Cummings. So we are looking into the ALJ situation and 
hopefully, that might be helpful in trying to address that 
issue.
    I want to go to you, Captain Beacom. In your testimony, you 
raised some very serious concerns about safety in the towing 
industry. You believe that manning, in particular, is often 
insufficient in part because the Coast Guard does not have 
adequate resources to ensure safety in the industry and in part 
because you believe management is essentially filtering 
information that passes to the Coast Guard through safety 
committees. Can you comment on how prevalent unsafe conditions 
you have described are in the towing industry?
    Captain Beacom. Well, a lot of it is based on the fact that 
they have cut the size of the crews to the point where it is 
impossible to operate safely. In 1988, I worked on a vessel 
that had a 10 man crew. That vessel is currently operating with 
a six man crew, doing exactly the same thing, and there is no 
automation that would lead to that downsizing. So you either 
have to come to the conclusion that the people that were 
operating the vessel in 1988 were idiots and they were paying 
four people not to do anything, or you have to come to the 
conclusion that those six people are now doing the work of ten. 
And any time you put that kind of an onerous workload on 
people, you decrease the amount of safety.
    Now, because of the fact that there is an onerous workload, 
the turnover changes. And I talked with people in both Dupont 
and Shell that say when you get more than a 20 percent turnover 
that any safety management program is nullified by the lack of 
knowledge within the group. And we have way more than a 20 
percent turnover on the deck on most towboats. So if you had 
adequate manning, you would eliminate this. Not only would you 
eliminate it, you would level the playing field so those 
companies who bid jobs on the basis of inadequate manning would 
not have a financial advantage against those who are trying to 
do things right.
    Mr. Cummings. Thank you.
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman.
    I apologize that other responsibilities didn't let me 
listen to your testimony, but I read it before.
    Mr. Rodriguez, I want to pick up with where the Chairman 
was on the criminalization issue, because we did have a rather 
lengthy hearing on the administrative law judge process, and I 
came away convinced that the Chairman was on the right path. I 
am a big believer that people can accept results, even when 
they lose, as long as they think they have been treated fairly. 
You don't always win, but you have to be treated fairly.
    If criminalization is one of the findings of this group 
that got together in 2001, what do you think the answer is? 
Clearly, we can't have people dumping oil in the water, we 
can't have people getting drunk and running their boats into 
rocks and things like that. So what would be your observation, 
that we should look more to civil penalties? What do you think 
we need to do?
    Mr. Rodriguez. Mr. LaTourette, I believe the answer, well, 
I don't want to confuse the ALJ issue and this issue of 
criminalization. We appreciate your looking at that problem. We 
are hopeful that you will come out with the right solution. 
Criminalization is, let me start by saying, anyone who 
willfully or intentionally discharges oil into the water is a 
criminal. That is clearly against our environmental law, it is 
against the public good. It should not be protected.
    But accidents do happen, and they happen in this high risk 
maritime industry. What we object to is under some of the 
environmental statutes, we have strict liability for what 
occurs, whether it is an accident or not. I think looking at 
the way those statutes are applied and the effect on this 
workforce, and again, it is not that it is always a direct 
effect. It gets into people's minds, it gets into the way they 
do business. They get overly protective, the crew begins to 
split between the junior officers and the senior officers who 
are probably going to be on the hook for anything that happens.
    I think a step in the right direction, and it is in my 
testimony, one of my recommendations is that we separate the 
investigations for trying to get to the cause of an accident 
and possibly a criminal action later on, and insulate whatever 
we find out in an accident investigation from any criminal 
prosecution that may result.
    Mr. LaTourette. Well, I think that is a good idea. We just 
had a big train derailment in my district, and two agencies 
came in, actually the EPA wandered in too, but we had the FRA 
come in, NTSB came in. NTSB is tasked with figuring out what 
happened. Then FRA is tasked with figuring out whether somebody 
should be held accountable for breaking the rules. Is that the 
model that you are sort of pitching to us?
    Mr. Rodriguez. Yes. The work that we do at IMO is kind of 
heading in that direction. There is a code of practice, it is a 
very long title and I haven't really committed it to memory. 
But there was a code of practice for the disparate treatment of 
seafarers after a maritime accident. And it has some principles 
in there. And one of the principles is that one of the goals of 
the investigation is to determine what the cause was and to 
prevent those kinds of accidents happening in the future.
    If you don't have the criminal side and the accident 
investigation side separated, it is very difficult to get at 
that root cause.
    Mr. LaTourette. I would think that is right, because if the 
person believes that they are going to be on the hook 
criminally, they are going to clam up. I mean, why would you 
want to cooperate and sort of incriminate yourself potentially 
or provide some information to somebody that could be used 
against your penal interests?
    Mr. Rodriguez. It can be self-defeating, and the 
international maritime community is beginning to realize that.
    Mr. LaTourette. Okay, and is that included some place? I 
know you said this in your testimony, these recommendations you 
are talking about, are they written down some place? Could you 
send those to us?
    Mr. Rodriguez. I certainly will. If I need to clarify them, 
if I need to elaborate on them, I certainly will.
    Mr. LaTourette. Thank you so much.
    Thank you, Mr. Chairman.
    Mr. Cummings. Just two questions. Mr. Annessa, you talked 
about the maritime industry's ability to recruit individuals 
from areas that are not near the water and that might in fact 
face a lack of local employment opportunities. What percentage 
of the people working for the member firms of the offshore 
marine service association live in areas that are not near the 
water and particularly in areas that are economically 
depressed? Can you give me some kind of ball park figure?
    Mr. Annessa. Yes, sir. I am not sure that without referring 
to our survey we could give you the exact componentry.
    Mr. Cummings. That is why I said ballpark.
    Mr. Annessa. I would suggest probably 75 percent of the 
mariners are in the coastal regions, the balance in the inland 
areas. I know that our particular company's case, when we look 
at our national demography, we have literally employees that 
live nearly every State in the Union, though the preponderance 
are in the Gulf States, Texas, Louisiana, Mississippi, Alabama, 
and then we have a high concentration in the Northeast, New 
York, Maine, and then in the Hampton Roads area, around 
Virginia, and then Florida. That seems to be the predominant 
locations where our workforce, and if it is indicative of a 
cross-section of the rest of the Country in our industry, then 
it would be probably appropriate. Seventy-five percent in the 
coastal areas, 25 percent in the inland areas.
    And one of the premises of our written testimony to attract 
mariners or candidates for employment in the marine industry in 
let's say inland or marginally employed areas would be to be 
more proactive in our communication of the opportunities that 
the industry affords potential prospects, particularly when a 
lot of the companies pay the transportation or provide a 
transportation allowance that allows the employee to cover the 
cost of moving back and forth to his assigned vessel from his 
home. It is a remarkable benefit in our industry that is 
available in very few others that I am aware of, with the 
possible exception of the airline industry where that travel is 
paid, or compensated to the employee to move from his location 
of domicile to his assigned vessel.
    Mr. Cummings. Do you worry about the future of these 
companies and their ability to get the employees they need? 
Does that concern you greatly?
    Mr. Annessa. It does concern me, sir, but it is not a grave 
concern. Because I do believe that we are on a momentum here 
that will, I hope, mitigate some of the busts and booms that 
our particular industry has experienced in recent years. We 
talk anecdotally about $80 per barrel oil as a motivator for 
continued investment by our particular client group in 
developing the offshore oil prospects in this Country. But our 
fleets are predominantly focused on an international 
capability, again, it is another great advantage that our 
industry affords, is that even if our vessels are not able to 
be employed in the U.S., those U.S.-flagged vessels can be 
employed in foreign locations and employ a certain complement 
of U.S. mariners. I think we are in a period at least for the 
foreseeable future of a prolonged opportunity for full 
employment. And with that momentum, I believe we will begin to 
attract new entrants into our business.
    The opportunities for a very predictable career path and 
the ability for an individual to attain a very well-paying job 
if he applies him or herself to achieving the credentialing 
that is needed is a very powerful and attractive for the 
candidates.
    Mr. Cummings. Can you tell me how much Offshore Marine 
Service Association generally spends on training their 
employees, and particularly for unlicensed mariners seeking to 
move ahead in their careers?
    Mr. Annessa. Yes, sir, approximately, unlicensed mariners 
from a greenfield start of what we would call an entry level 
employee that would be an ordinary seaman, we commit 
approximately $3,000 to $6,000 to take them through the STCW 
certification and get them proficient, for example, for the 
deck department to be a rating and performing part of a 
navigation watch, which is one of the certifications they 
require. Almost all of our member companies are bearing the 
cost of that themselves, reimbursing or paying for that 
training of those individual employees. The career path 
continues to move from that rating level to mate or in the case 
of the interim, to qualified man or chief engineer onto captain 
of the bridge. Commitment of training dollars over a six to ten 
year career path, which is necessary not only to accomplish the 
course work, but to achieve the sea time that is required, may 
result in a commitment by the companies of anywhere from 
$10,000 to as much as $40,000, depending on the standard of 
certification that is attained by the mariner.
    Now, certainly, we, like many of the other shipping 
companies under the U.S. registry, do try to seek candidates 
from the maritime academies, the State schools and Kings Point. 
They come with basically a third mate or third engineer's 
certification that they have earned through participation in 
the academic environment and the sea time they have achieved 
through those academies. But we also have to develop those 
mariners ourselves internally through what we call commonly the 
hawespipe, fellow, men and women that come up through the ranks 
to achieve those same certifications, at a cost either to 
themselves or generally borne by the companies that is not very 
much different than what they would pay or what the cost of an 
academy education might cost.
    Mr. Cummings. Thank you all very much.
    Mr. Tellez, nobody asked you a question, did you just need 
to say something? Go ahead and say it. We definitely want to 
hear you.
    Mr. Tellez. I would invite you all to Piney Point so you 
can see first-hand what happens down there in terms of training 
and certification. Come on down.
    Mr. Cummings. I have been there, but I will come back.
    Mr. Tellez. I would invite the rest of the Committee.
    Mr. Cummings. All right. Thank you very much.
    Our third and final panel, and I want to thank everybody 
for waiting around, we really appreciate it, Captain Arthur 
Sulzer, a Board Member with the Maritime Academy High School in 
Philadelphia, Pennsylvania; Captain Jeff Slesinger, the 
Director of Safety and Training with Western Towboat Company; 
and Berit Eriksson, Former Executive Director of the Pacific 
Coast Maritime Consortium.
    Mr. Sulzer.

  TESTIMONY OF CAPTAIN ARTHUR H. SULZER, USN (RETIRED), BOARD 
  MEMBER, MARITIME ACADEMY CHARTER HIGH SCHOOL; CAPTAIN JEFF 
 SLESINGER, WESTERN TOWBOAT COMPANY, CHAIRPERSON, COMMITTEE ON 
 STRATEGIC PLANNING, PACIFIC MARINE TOWING INDUSTRY PARTNERS; 
   BERIT ERIKSSON, FORMER EXECUTIVE DIRECTOR, PACIFIC COAST 
                      MARITIME CONSORTIUM

    Captain Sulzer. Thank you, Mr. Chairman.
    Mr. Chairman and distinguished Members, it is a great 
pleasure to appear before this Committee. I am Captain Art 
Sulzer, a second generation mariner whose father served as a 
merchant marine officer in World War II. I have been in this 
industry my whole life and I have witnessed first-hand the 
effects of America's decline as a shipbuilder and ship-
operating Nation.
    As one of the focuses of this hearing is shortness of 
mariners, I actually find that heartening that this may portend 
a change in our industry and some future growth.
    I am going to principally discuss maritime education at the 
entry and crew level, where our greatest shortages appear. My 
paper, which you have, is five sections. I am going to skip and 
just cover the last three in an effort to save time.
    Most people are familiar with mariner training such as the 
cabin boy serving tea on the Titanic, the powder monkeys 
serving cannon balls to gunners in movies such as Master and 
Commander. This is the impression many Americans have of 
maritime training, and they were right. It is a hands-on 
training, although it has changed quite a bit since those days.
    Today's mariner needs to be highly trained, needs to be 
dedicated and motivated. This applies to all positions on board 
ships, not just the master. That is what I want to address.
    Many of my colleagues today talked about current issues and 
problems. I would basically echo those: aging workforce, 
compensation issues, documentation, renewal problems. But the 
one area that was not talked about today that I want to focus 
on is our maritime heritage. This is not talked about very 
often. It is most overlooked, and unfortunately, the American 
public has largely forgotten that we are an island nation, 
dependent on waterborne commerce for most of our goods and 
services.
    Now, traditionally, American mariners have come from the 
European nations and certain areas of Africa, Asia and the 
Pacific. For the most part, they were also largely immigrants. 
Policies in the 1990s and security requirements have cut off 
the source of mariners. I believe we need to create a new 
generation of mariners in this Country with a tradition of 
maritime seafaring. And I believe that the group will come from 
our under-served urban students in America's cities, which can 
use this program as an opportunity to escape poverty and to 
find their ways to good, meaningful careers. That is what I 
think the maritime high school movement is about.
    Specifically in maritime education, I got involved in 2003 
as a board member opening a charter school in Philadelphia. We 
opened with 125 students. As of this year, we now have 700 and 
we have a waiting list of over 300 students. We will graduate 
our first seniors this year.
    Along with that, I was also completing my doctoral work at 
the University of Pennsylvania, and because of my involvement, 
I took the opportunity to start to conduct research on this 
growing movement. When I thought I had one school, lo and 
behold, I found there are over 16 in the Country and growing. 
My research specifically is entitled Maritime Tactile Education 
for Under-Served Urban Students in America: Sailing to Success. 
Presently there are 16 maritime middle and high schools around 
the Country that are about 350 to 400 students.
    What I have done in working with these schools, I have 
grouped them into a couple of categories. The first thing is 
program style, how they conduct their training. There is the 
integrated method, vocational, apprentice and academic.
    The other way that I group these schools is by program 
type; what type of outcome do they desire. We have general 
maritime studies, which is a broad program; industry-specific, 
such as fishing, marina, tug barge; company-specific, where a 
particular company takes an interest in a school looking for 
future employees, and lastly regional. I have given examples of 
some of these fine schools in my paper.
    What I would like to talk about is how we can help these 
schools succeed. Now, to help them, you have to see some of the 
positive outcomes. This has been parent-student interest, the 
graduation rates are up, comportment and student behavior has 
increased as a result of the maritime programs, academic grades 
have come up, and graduation upon employment.
    You have asked me to come, I hope that I have excited you. 
I have some suggestions for you on how you can help. These 
suggestions include promotion of conferences on maritime 
education, development of grant programs on maritime regional 
awareness, video materials, review of aid restrictions which 
impact apprentice programs, continuation of maritime vocational 
training, encourage Federal agencies to continue to work with 
the maritime schools and create and fund a national cooperative 
research program in marine transportation to serve as a conduit 
and a source for these efforts and increase public awareness.
    I see a positive future in maritime education and I am 
encouraged by the results we have seen in our own school and I 
hope this will be a continuing trend. Thank you, gentlemen.
    Mr. Cummings. Thank you very much.
    Captain Slesinger?
    Captain Slesinger. Good afternoon, Mr. Chairman. On behalf 
of the Washington State Skill Panel, I want to thank you for 
inviting us to speak about how we are currently dealing with 
the personnel crisis in the towing industry. I am Captain Jeff 
Slesinger, Chairperson of the Skill Panels Committee on 
Strategic Planning.
    I am also a working tugboat captain and Director of Safety 
and Training for Western Towboat. Western Towboat is a family-
owned tug and barge company located in Seattle. We, as well as 
other west coast tug and barge companies, provide a vital 
transportation link between ports on the west coast and Alaska. 
There are many communities in Alaska where the only means of 
transporting critical supplies is with a tug and barge. Our 
work is diverse and essential. We move 600 foot tank barges 
filled with petroleum products; we tow freight barges stacked 
with containers; we tow ocean-going barges carrying rail cars 
on deck. We do this year-round through Pacific storms and 
Alaskan winters.
    I can tell you from my own personal experience that this 
work is challenging and very rewarding. But frankly, we have 
serious concerns about our ability to crew vessels today and in 
the future. We face challenges on all fronts: recruitment, 
training and retention of competent and qualified mariners.
    The Skill Panel's success in meeting those challenges is a 
result of a highly-organized, non-partisan collaboration 
between business, education, labor and the local workforce and 
economic development councils. The one word I hope you 
associate with our success and our testimony today is 
partnership. We found solutions by partnering with government 
and industry resources. And we would like the Federal 
Government to play a larger role in that partnership.
    Over the past two years, our skill panel has developed two 
highly effective and efficient partnership models that have a 
record of demonstrated success. The first is the Skill Panel 
itself. The catalyst for the panel's formation is the same 
fundamental personnel problem we share with the rest of the 
towing and marine transportation industry. We have good family 
wage jobs. We have people who want those jobs.
    What we don't have is a clear, coordinated career path. We 
don't have good answers to the man or woman who is on a dock 
and asks, how can I get a job on one of those tugs? What kind 
of training do I need and where can I get it?
    Although these are simple questions, the process of 
developing simple answers is more complex. This is because the 
source of these answers lies in different sectors. Industry, 
Government and educational institutions all house partial 
solutions. What is needed is an organization that connects 
these sectors, takes partial solutions and makes them whole. 
This is the primary role of our Washington State Skill Panel.
    The second example of the successful approach is our 
support of the Workboat Mate Vocational Apprenticeship Program. 
In 2005, the Pacific Maritime Institute, located in Seattle, 
pioneered this approach for towing vessels. This program 
provides a defined career pathway to the level of mate.
    At the end of the two year process, we have an individual 
who has confidence in his skills, because he has already put 
them to work in an on the job environment. The Coast Guard has 
confidence that this individual has met not just the certifying 
standard, but the intent of that standard. And the companies 
have confidence that this individual has been trained to a 
common, accepted standard, one that works in practice, not just 
on paper.
    The program's success is a direct result of a partnership 
between an individual cadet, the Coast Guard, the towing 
industry and the maritime training center. All bring commitment 
to the process, and all reap the rewards.
    The benefit of this program goes far beyond the original 
partners. The local communities have gained an individual whose 
family wage job contributes to the local and regional 
economies. He or she helps ensure that a critical link in the 
region's transportation network continues to function in a safe 
and effective manner. This is truly an example of how a rising 
tide floats all boats.
    This type of coordinated effort is readily available to 
other regions and could be expanded to all sea-going positions 
on tugs. However, funding for the Skill Panel will soon run out 
unless new Government resources are made available.
    Mr. Chairman, we very much appreciate the opportunity to 
appear before you today. Our Skill Panel stands ready to work 
as a contributing partner with this Committee and other Federal 
agencies. Together, we can create clear, viable pathways for 
training qualified individuals seeking a career in the towing 
industry. Thank you.
    Mr. Cummings. Thank you very much, Captain.
    Ms. Eriksson?
    Ms. Eriksson. Good afternoon, Chairman Cummings and Members 
of the Subcommittee.
    My name is Berit Eriksson, and I hold an endorsement as an 
Able Seaman Unlimited and I am a member of the Sailor's Union 
of the Pacific.
    As a working mariner and maritime workforce development 
specialist, I would like to thank you for the opportunity to 
address the Committee on the education and workforce 
development challenges facing the United States maritime 
industry. The U.S. Merchant Marine is diverse and its workforce 
problems are complex. I am convinced that mariner workforce 
development solutions must be as diverse as our industry. I 
want to primarily address and suggest a potential solution to 
the problem of the financial challenges facing merchant 
mariners as they attempt to advance upwards through the 
maritime career ladder. Commonly known as the hawespipe, it 
speaks to the difficult transformation of unlicensed mariners 
into licensed mariners.
    First, some background which speaks to the finding of 
solutions through partnerships. In 2001, the Pacific Coast 
Maritime Consortium, or the PCMC, was created to meet the 
immediate training needs brought on by the then-looming 2002 
deadline of the STCW Convention. It was a multi-State 
partnership approach encompassing Alaska, Washington, Oregon, 
California and Hawaii, and included five maritime unions and 
six maritime employers.
    From 2001 to 2006, the PCMC worked to ensure that qualified 
U.S. mariners were available in sufficient numbers for the 
maritime sectors of the West Coast region. During this period, 
it became clear that the advancement from unlicensed to 
licensed mariner positions was practically eliminated as a 
result of the new regulations. We could not accept that, and 
the Consortium turned to addressing the issue.
    As you may be aware, the STCW Convention had created 
certain unfunded training and certification mandates, which 
seriously impacted the ability of the industry to meet 
licensing requirements. Through a grant funded project, we 
found that it took a little more than two years for an 
unlicensed mariner working in the towing industry to complete 
all the certifications required for a third mate towing license 
at the approximate cost of $16,000 just for the courses. That 
is not counting travel and room and board expenses.
    Most working mariners find this too daunting a financial 
hurdle to career advancement. This is a cause for grave concern 
for when we consider that approximately 95 percent of the mates 
and masters in the U.S. offshore and coastways towing sector 
have come through the hawsepipe.
    To develop solutions to these challenges, the PCMC hosted 
several regional maritime roundtable meetings in Alaska, 
Hawaii, California and Washington with the Skills Panel, where 
there emerged a strong consensus on the concept of the maritime 
education loan program. It is modeled after the existing and 
successful Teachers Educational Forgivable Loan program. The 
program would provide unlicensed mariners with the means to 
pursue higher certification by vaulting the financial obstacles 
by a Government loan that is forgivable only upon demonstration 
of long-term commitment to the industry.
    With this in mind, we drafted sample legislative language 
as a possible solution to the financial challenges of advancing 
in a maritime career. The main points of the concept are: the 
program would be administered by the Maritime Administration; 
to encourage retention, the loan would be forgiven if the 
mariner completes 36 months of sea time; the loan may not 
exceed a lifetime total of $60,000; the loan may be used for 
tuition, travel to and from training facilities, room and 
board, books, loan guarantee fees and other required fees. The 
loan program would initially be a five year pilot project.
    The training institutions would be chosen based on 
geographic diversity, their ability to administer a Federal 
program and their possession of appropriate U.S. Coast Guard-
approved sites, courses and instructors. Student eligibility 
would be based on their holding a valid merchant marine 
document, committing to completing the course of instruction 
and serving as a merchant marine officer or unlicensed mariner 
upon the completion of the course of instruction.
    The appropriate office for administration of the loan 
program would be the Office of Maritime Workforce Development 
within the Maritime Administration. This office should also be 
the site for other innovative workforce development programs 
that need to be integrated with the U.S. Coast Guard regulatory 
requirements. One such program could be a Secretary's 
discretionary grant program, which exists in Labor, and it 
would well here, I think, which could fund maritime workforce 
demonstration projects such as multi-State training projects, 
demographic and industry needs research projects, entry level 
enrichment programs and youth school-to-career programs.
    In conclusion, I would like to thank you again for this 
opportunity to present some possible solutions for recruitment, 
training and retention challenges facing the merchant mariners 
and the maritime industry today.
    Mr. Cummings. Thank you all very much.
    Mr. Slesinger, tell me, how difficult is it for a young 
person who is not a member of a union to get the training they 
need to move ahead in the maritime industry?
    Captain Slesinger. Right now, it is I would say a matter of 
circumstance. For instance, for a non-union company, such as 
ourselves, if you approached us, some of our best employees are 
those that have no background and are basically walking up and 
applying. But what has to happen is a relationship has to 
develop between that company and that individual where it is a 
mentor relationship, it carries them through the process. 
Because there really is no formalized structure or organization 
that could lead that person through there.
    So it is very dependent on the companies they contact and 
it is very dependent on the type of relationship they can 
establish with that company.
    Mr. Cummings. Captain Sulzer, you were talking about how 
you went from, in Philadelphia, I think you said, from 125 
students to 700, is that right?
    Captain Sulzer. That is correct, sir.
    Mr. Cummings. One of the things that I, what I have tried 
to figure out is that when I look at the Baltimore school, I 
think we have a lot of students coming, and some of them 
genuinely have an interest in maritime. Many of them are just 
looking for a decent school to go to where they are going to 
feel safe and feel as if there is learning taking place. I hate 
to even say that, but it is true.
    So I am trying to figure, and because of that, they have 
had a tremendous success rate in the five or six years they 
have been there. I don't think it has so much necessarily to do 
with the curriculum. I think that is going to change, though, 
and I think that what is going to happen is that the curriculum 
is going to drive it. I think Baltimore will have a problem in 
the next two or three years if not, probably less than that, 
with a waiting list of people trying to get into this school.
    What do you see as the problems you have seen so far with 
the schools you have been involved with? How easy or difficult 
is it to create a curriculum that truly trains them to go into 
the maritime industry and do you get the impression that a lot 
of these young people are basically going to these schools, 
like I said, to get a decent education, not necessarily going 
into the industry? And I am sure there are advantages of just 
having that knowledge, even if they never go into the industry, 
many of them will go on to college, and may not want to go the 
route of the industry.
    What do you see are the problems and what do you see is 
attracting young people to the Philadelphia school?
    Captain Sulzer. You are correct, a good, safe school is the 
first attraction to the school, since these students don't know 
what maritime is, as I mentioned before. Our job is, once they 
get there, to fire up an interest. We chose to start at fifth 
grade. As Admiral Craine said, the difference in education in 
fourth and fifth grade, a student goes from being fed education 
to eating education on their own.
    So we chose an earlier model to get these kids interested. 
In our early program, grades five to nine is what I call the 
song of the sea, where we take maritime and we infuse it in all 
the regular subjects. Pilgrims came over on the Mayflower; that 
is the last most of us ever hear of the Mayflower. It is a 
ship, it had to navigate. So we start to infuse this at the 
early grades to get them interested in our programs when they 
move into ninth grade.
    Now, I can give a concrete example of how maritime actually 
helps these students improve. One particular school that has 
been around for a while, again, most of these schools have only 
opened since 2000, so the track record is short. Mar Vista, 
which is in the San Diego area, has had a long partnership with 
the Military Sealift Command. They have had a maritime program 
for five years and they have graduates. What they started to 
show me the data is that, again, in most of these inner-cities 
schools, if you show up and go to class, you are going to pass. 
That is not true every place else.
    What happened in this school is, the students, because of 
Coast Guard requirements for training and passing and 
documentation, they had to do more than show up in the maritime 
classes to get by. And an amazing thing happened: they worked 
hard. When they went back to their regular classes in the 
afternoon, the brain didn't get shut off. And lo and behold, 
what started to come up was English, science and the other 
courses. Because what they learned by making the commitment to 
maritime, which they made, we didn't force them, is they 
learned their own skills and they started to develop. That is 
what really excites me.
    I will be honest, at the end of the day, if not a single 
graduate of Maritime Academy Charter School works on the water, 
but everyone graduates, we hit a home run. Because you know 
graduation rates inner city. I have to say that as an educator.
    But I am fully convinced that a percentage of those 
students will go into maritime, and as they come back to the 
neighborhoods, which they can do, because of transportation, 
they will talk to their fellow neighbors and that will grow. We 
have 300 on the waiting list right now. So I am convinced this 
works and I have seen it.
    Mr. Cummings. One of the interesting things, I have visited 
the Maritime Academy in Baltimore on several occasions. But my 
last visit, I so happened to get there when the former marine 
chief warrant officer, Officer Williams, was drilling these 
students and teaching them to march. And I was just amazed that 
these kids were doing it. It sort of blew me away that 
everybody was in line, and he has his marine uniform on.
    And the reason why I raise that is you talk about the 
quasi-military nature, and if you have a quasi-military 
component there, that it helps with behavior. I kind of saw 
that, I saw kids that were, I think, I get the impression that 
they almost want the discipline, they almost want the 
structure. And I can hardly wait to see them in their uniforms. 
That, I am sure, will be an even greater boost.
    In Baltimore, as many districts are dealing with, we are 
dealing with gangs and the phenomenon of gangs. We are finding 
that there are certain things that attract kids to gangs, it is 
the discipline, it is the family, it is the belonging, things 
of that nature. When I talk to some of these kids and ask them 
why do they like the kids, a lot of the very things that other 
kids tell me attract them to gangs, the identical types of 
things that attract them to the school, that closeness, that 
discipline, somebody looking over your shoulder, people going 
in the same direction that you are going in.
    Now, of course the gangs are going negative, the Academy is 
going positive. Could you comment on that, please?
    Captain Sulzer. I agree with you. In fact, I just spoke 
with the lieutenant colonel who runs Western Maritime School up 
in Buffalo. He and I were talking, and he was about ready to 
pull his hair out, because he has been there about two years. I 
said, stay the course. It is going to be rough the first couple 
of years. I had to sit on discipline boards and everything 
else, and I felt like Captain Blye sometimes.
    But you go through a learning curve where those who are 
going to get with the program stick with it, and then that 
number swells and those that aren't going to get with the 
program leave. Once you turn the corner, the momentum grows. 
One program we talked about is typically, you give out demerits 
for bad behavior.
    Well, we talked about giving out doubloons as a reward. We 
ignore the 90 percent of the kids who sit there and want to 
learn and we focus on the 10 percent. So what I've been 
advocating is we give out doubloons for making the grade. 
Everybody knows doubloons, pirates, et cetera. This is what the 
kids like. You earn these doubloons for good grades and good 
behavior, and you redeem them at the end of the month. How 
about some positive rewards instead of negative?
    So I agree with you. But the schools will go through a 
learning curve and then they will turn the corner and it is 
only going to get better. That is the message I am trying to 
get out there.
    Mr. Cummings. This is my last question. Is there something 
unique about maritime, say a maritime curriculum in achieving 
the things that you and I just talked about, as opposed to 
perhaps a medical type curriculum, preparing them for medical 
school, preparing them for other types of things? Is there 
something very unique about maritime that would cause that kind 
of effect that we are now talking about?
    Captain Sulzer. Well, as I said, we are an island nation. 
We all got here by a boat a long time ago. And it is something 
I believe that people thrive on. When I go to meetings, parents 
come up to me, they want to know how to get their kids 
involved. They don't know anything about it, it ignites 
something in people. I can't put my finger on it. I guess it is 
just the way we are in this Country. But it is awareness, and 
it is very important to get the parents involved at an early 
stage, and maritime will bring them to a meeting. They like it, 
and that is critical.
    Mr. Cummings. Yes, Ms. Eriksson?
    Ms. Eriksson. Mr. Cummings, when I was working with the 
Pacific Coast Maritime Consortium, we did have a grant that 
funded Mar Vista High School, partially. So I was the project 
coordinator down in San Diego at the time. And the kids were 
going to school in the building I was in.
    And in answer to you, what was one of the things about the 
curriculum that really got them, and strangely enough, because 
I was a working mariner, this happens on a ship, the kids who 
were like the engine kids and the kids who were like the deck 
kids, they called them the black gang and the knuckle draggers. 
They identified with being marines. They had that, as you said, 
that identity like they are not in the gang any more. But now 
they are like deckies or they are like the black gang. And they 
take great pride in that. So I think that is part of what 
happens within that curriculum.
    Mr. Cummings. Thank you very much.
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman, and thank all of 
you for your testimony.
    Captain Sulzer, is the Mar Vista program the oldest of the 
16 that you have laid out in your testimony?
    Captain Sulzer. No, it is not. It is the most focused, 
specifically for direct employment upon graduation. Actually, 
some of the schools go back into 1991. But one of the things 
is, and I have kind of put them together, I have to clarify, 
there are maritime schools and there are marine. They are 
different. Marine schools have typically been around a little 
bit longer, there are several in Florida. Marine deals with the 
sciences and biology and oceanography. Maritime is a fairly new 
phenomenon. And they can work together and they can work in 
concert, and some schools actually have both programs.
    So Mar Vista is focused on marine employment, deep sea, and 
has a partnership particularly with MSE.
    Mr. LaTourette. And did you indicate that Mar Vista 
actually has graduated a class?
    Captain Sulzer. Yes, sir, they have.
    Mr. LaTourette. And I know that the Chairman was talking 
about something that is of great interest to me, and that is, I 
think it is wonderful to get graduation rates up and so forth 
and so on, but if we are dealing with people actually going 
into the business, is there any data available based on that 
graduating class of how many kids chose to make maritime a 
career?
    Captain Sulzer. There is, sir. I don't have it in front of 
me. It is not great, but it is there. And I guess one 
indication is, I have people looking for our seniors that 
haven't even graduated yet. So there is a large interest from 
employers. And again, I tell employers, I used to be head of 
personnel at a company. People leave because they don't like 
your company. You need to start a partnership early on.
    The one comment that was made today, I will just take a 
brief moment to mention, is the cost of mariner training. What 
I have said to marine employers is, you will spend $6,000 to 
$10,000 on an unknown walking in off the street. How about you 
give me $1,000 for my ninth graders and get to know them for 
four years and build a relationship? That ninth grader is going 
to stick with you. That is a much better investment than 
throwing money out at unknowns. That is what I think is a big 
help.
    Mr. LaTourette. I think that is exactly right, and that 
goes into what I want to talk to Captain Slesinger about, and 
that is apprenticeship programs. Do these 16 institutions that 
you have put in your testimony have apprenticeship programs as 
part of their curriculum or no?
    Captain Slesinger. Some do. One issue that has just come 
up, which I mention in my comments, which was unknown to me, I 
started working as a mariner with the Corps of Engineers when I 
was 16. Apparently in the 1980s, some changes were made in the 
labor laws that preclude young people, before the age of 18, 
from working in the marine field. This is a particular problem.
    I had KC Shipping offer me four full-term internships this 
summer for our eleventh graders, and I couldn't get the 
students involved because of that. Now, maybe something can be 
done to exempt an apprentice program which is structured and 
looked at, rather than direct employment. But most juniors are 
not going to be 18. And it is a problem that is just starting 
to show up.
    Mr. LaTourette. Is that a State law or is that a Federal 
law?
    Captain Slesinger. I believe it is Federal. I am working 
with some DOL people on that to get a little more information. 
But that just came out of left field for us.
    Mr. LaTourette. Captain Slesinger, the apprenticeship 
programs that you were describing in your testimony indicated 
that their success is really determinative based upon the 
company buy-in. And are you finding, because of shortages, 
because of new training requirements, are you finding companies 
willing to make that buy-in? Are they eager to do that?
    Captain Slesinger. Yes. Yes, companies are very eager to do 
that. I think their problem is finding the right vehicle to do 
it. That is why, in the towing industry, I do not believe that 
you could have a successful training program unless you involve 
the companies. These are hands-on jobs and you need people to 
be out there working with their hands and working on the 
vessels. We heard earlier testimony that one of the problems 
with the Academy is the lack of ships. There are many, many 
tugboats around which could use apprentices and start that 
training process. But that is key to their success.
    Mr. LaTourette. This reminds me, I have a lot of folks in 
the machine business back in Ohio. Most of them are first or 
second generation people who came from Eastern Europe, most of 
them are 50, 60, up in years. Like you, they are having trouble 
attracting young people to make that a career path. Some of the 
most successful recruitment efforts that I have seen are based 
upon fellows that have apprenticeship programs, teaching them 
that it is actually a good career, it can be a rewarding 
career.
    Ms. Eriksson, there has been a lot of talk today about the 
cost of STWC standards, and you mentioned it, some others 
mentioned it. I think you mentioned $16,000, I think one of our 
earlier witnesses said $20,000, and maybe they put in the room 
and board that you said wasn't included in your figure.
    I have two questions before I get to your loan proposal. 
Have these higher standards resulted in a safer maritime 
working environment, in your opinion? Sometimes we make rules 
that don't mean much, even when you follow them.
    Ms. Eriksson. As an unlicensed mariner in like the basic 
safety training, et cetera, I do believe they have made it 
safer, especially when I worked for the Alaska Marine Highway 
in the steward's department, they never drilled that with fire 
and et cetera. So I found that to be highly of value.
    I think when you get into the higher levels, I don't know, 
because I am not an officer, I am an unlicensed mariner, but 
just anecdotally, I think some of it became a little too highly 
regulated. But you have to meet the convention.
    Mr. LaTourette. Right. And my observation is there is some 
basic stuff, we had a hearing on marine safety and we had some 
captains in that indicated when they drilled, they had turnout 
suits that didn't fit, because somebody got a little chubbier 
than they used to be when they first got the suit. So there is 
some basic stuff, like CPR and lifesaving, things like that.
    But let me talk to you about your loan proposal, because I 
am intrigued. I happen to be a big supporter, I think the 
Chairman probably is, too, that we do recognize in certain 
industries, we have a national interest in promoting employment 
in those industries. So we do it, you mentioned teachers, I 
think we do it with nurses, we do it with physicians. And it is 
to make sure that under-served areas have the opportunity to be 
served by health care professionals or teachers, as the case 
may be.
    I understood what your proposal is. Do you think that it 
needs to be for the entire Country or should we target it 
towards particular areas that are having difficulty recruiting 
and maintaining merchant mariners?
    Ms. Eriksson. In my opinion, it should be a national 
program, as it would be, then, within MARAD. Because the issues 
in Alaska are often the same issues as in Florida or in the 
Gulf Coast and Seattle in terms of the coast-wise, and that is 
all around the Country, the hawsepipe issue. Though it is 
designed to even be usable to somebody who wants to get their 
AB and tankerman, which could cost $5,000. So I think, but as a 
pilot project, I think you should target geographically the 
areas where there is the most need.
    Mr. LaTourette. Let me ask you just this $16,000 or $20,000 
or whatever it is, is it your experience and observation that 
that cost is completely borne by the person who wants to 
receive that certification? Or do the companies help?
    Ms. Eriksson. Often a company can help or a union can help. 
But in terms of like when you are hawsepiping the unlicensed 
union doesn't necessarily want to pay for you to become 
licensed and vice versa. Also the traditional independence of 
mariners, they tend to want to move around. So there are quite 
a few mariners that will want to get this on their own, or that 
used to get them on their own with a minimum of expense to get 
their license and that is all shut down. So you would have to 
almost indenture yourself, in a way, to get what you needed.
    Mr. LaTourette. And is it your observation, just so I am 
clear, that the STWC stuff has taken it from it didn't cost too 
much to get your license? Is it all in STWC that takes us up to 
the $16,000, $20,000?
    Ms. Eriksson. My understanding is that the STWC 
certifications requirements for between AB and mate, it is like 
flashing lights and stability, et cetera, and GMDSs. I base the 
$16,000 on what the Pacific Maritime Institute was charging at 
the time.
    Mr. LaTourette. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Cummings. Just one last question, Ms. Eriksson. Let's 
talk about women in the industry. What challenges do we have 
with regard to getting women in this industry? I am just 
curious.
    Ms. Eriksson. From when I started, when it was hell, to 
now----
    Mr. Cummings. Say that again?
    Ms. Eriksson. It was hell in the beginning, in the 1970s. 
But the situation has really changed. It is much better. The 
academies are turning out really good women officers and stuff. 
And something I want to not only in terms of women, I want to 
bring up in terms of this meeting is, we have spent a lot of 
time talking about officers, where 75 percent of the workforce 
is unlicensed.
    That is where the challenges were for women in the past, 
especially in the engine room. But that is changing a lot. And 
some of these programs, like the high school programs, Mar 
Vista and others, the girls, high school girls, they are doing 
really well. There are girls coming out of those high school 
classes, too. It has improved quite a bit. It can get better. 
It is not as unpleasant any more. There is a lot more 
acceptance.
    Mr. Cummings. Thank you all very much. This ends this 
hearing.
    [Whereupon, at 1:50 p.m., the Committee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 38515.013
    
    [GRAPHIC] [TIFF OMITTED] 38515.014
    
    [GRAPHIC] [TIFF OMITTED] 38515.015
    
    [GRAPHIC] [TIFF OMITTED] 38515.016
    
    [GRAPHIC] [TIFF OMITTED] 38515.017
    
    [GRAPHIC] [TIFF OMITTED] 38515.018
    
    [GRAPHIC] [TIFF OMITTED] 38515.019
    
    [GRAPHIC] [TIFF OMITTED] 38515.020
    
    [GRAPHIC] [TIFF OMITTED] 38515.021
    
    [GRAPHIC] [TIFF OMITTED] 38515.022
    
    [GRAPHIC] [TIFF OMITTED] 38515.023
    
    [GRAPHIC] [TIFF OMITTED] 38515.024
    
    [GRAPHIC] [TIFF OMITTED] 38515.025
    
    [GRAPHIC] [TIFF OMITTED] 38515.026
    
    [GRAPHIC] [TIFF OMITTED] 38515.027
    
    [GRAPHIC] [TIFF OMITTED] 38515.028
    
    [GRAPHIC] [TIFF OMITTED] 38515.029
    
    [GRAPHIC] [TIFF OMITTED] 38515.030
    
    [GRAPHIC] [TIFF OMITTED] 38515.031
    
    [GRAPHIC] [TIFF OMITTED] 38515.032
    
    [GRAPHIC] [TIFF OMITTED] 38515.033
    
    [GRAPHIC] [TIFF OMITTED] 38515.034
    
    [GRAPHIC] [TIFF OMITTED] 38515.035
    
    [GRAPHIC] [TIFF OMITTED] 38515.036
    
    [GRAPHIC] [TIFF OMITTED] 38515.037
    
    [GRAPHIC] [TIFF OMITTED] 38515.038
    
    [GRAPHIC] [TIFF OMITTED] 38515.039
    
    [GRAPHIC] [TIFF OMITTED] 38515.040
    
    [GRAPHIC] [TIFF OMITTED] 38515.041
    
    [GRAPHIC] [TIFF OMITTED] 38515.042
    
    [GRAPHIC] [TIFF OMITTED] 38515.043
    
    [GRAPHIC] [TIFF OMITTED] 38515.044
    
    [GRAPHIC] [TIFF OMITTED] 38515.045
    
    [GRAPHIC] [TIFF OMITTED] 38515.046
    
    [GRAPHIC] [TIFF OMITTED] 38515.047
    
    [GRAPHIC] [TIFF OMITTED] 38515.048
    
    [GRAPHIC] [TIFF OMITTED] 38515.049
    
    [GRAPHIC] [TIFF OMITTED] 38515.050
    
    [GRAPHIC] [TIFF OMITTED] 38515.051
    
    [GRAPHIC] [TIFF OMITTED] 38515.052
    
    [GRAPHIC] [TIFF OMITTED] 38515.053
    
    [GRAPHIC] [TIFF OMITTED] 38515.054
    
    [GRAPHIC] [TIFF OMITTED] 38515.055
    
    [GRAPHIC] [TIFF OMITTED] 38515.056
    
    [GRAPHIC] [TIFF OMITTED] 38515.057
    
    [GRAPHIC] [TIFF OMITTED] 38515.058
    
    [GRAPHIC] [TIFF OMITTED] 38515.059
    
    [GRAPHIC] [TIFF OMITTED] 38515.060
    
    [GRAPHIC] [TIFF OMITTED] 38515.061
    
    [GRAPHIC] [TIFF OMITTED] 38515.062
    
    [GRAPHIC] [TIFF OMITTED] 38515.063
    
    [GRAPHIC] [TIFF OMITTED] 38515.064
    
    [GRAPHIC] [TIFF OMITTED] 38515.065
    
    [GRAPHIC] [TIFF OMITTED] 38515.066
    
    [GRAPHIC] [TIFF OMITTED] 38515.067
    
    [GRAPHIC] [TIFF OMITTED] 38515.068
    
    [GRAPHIC] [TIFF OMITTED] 38515.069
    
    [GRAPHIC] [TIFF OMITTED] 38515.070
    
    [GRAPHIC] [TIFF OMITTED] 38515.071
    
    [GRAPHIC] [TIFF OMITTED] 38515.072
    
    [GRAPHIC] [TIFF OMITTED] 38515.073
    
    [GRAPHIC] [TIFF OMITTED] 38515.074
    
    [GRAPHIC] [TIFF OMITTED] 38515.075
    
    [GRAPHIC] [TIFF OMITTED] 38515.076
    
    [GRAPHIC] [TIFF OMITTED] 38515.077
    
    [GRAPHIC] [TIFF OMITTED] 38515.078
    
    [GRAPHIC] [TIFF OMITTED] 38515.079
    
    [GRAPHIC] [TIFF OMITTED] 38515.080
    
    [GRAPHIC] [TIFF OMITTED] 38515.081
    
    [GRAPHIC] [TIFF OMITTED] 38515.082
    
    [GRAPHIC] [TIFF OMITTED] 38515.083
    
    [GRAPHIC] [TIFF OMITTED] 38515.084
    
    [GRAPHIC] [TIFF OMITTED] 38515.085
    
    [GRAPHIC] [TIFF OMITTED] 38515.086
    
    [GRAPHIC] [TIFF OMITTED] 38515.087
    
    [GRAPHIC] [TIFF OMITTED] 38515.088
    
    [GRAPHIC] [TIFF OMITTED] 38515.089
    
    [GRAPHIC] [TIFF OMITTED] 38515.090
    
    [GRAPHIC] [TIFF OMITTED] 38515.091
    
    [GRAPHIC] [TIFF OMITTED] 38515.092
    
    [GRAPHIC] [TIFF OMITTED] 38515.093
    
    [GRAPHIC] [TIFF OMITTED] 38515.094
    
    [GRAPHIC] [TIFF OMITTED] 38515.095
    
    [GRAPHIC] [TIFF OMITTED] 38515.096
    
    [GRAPHIC] [TIFF OMITTED] 38515.097
    
    [GRAPHIC] [TIFF OMITTED] 38515.098
    
    [GRAPHIC] [TIFF OMITTED] 38515.099
    
    [GRAPHIC] [TIFF OMITTED] 38515.100
    
    [GRAPHIC] [TIFF OMITTED] 38515.101
    
    [GRAPHIC] [TIFF OMITTED] 38515.102
    
    [GRAPHIC] [TIFF OMITTED] 38515.103
    
    [GRAPHIC] [TIFF OMITTED] 38515.104
    
    [GRAPHIC] [TIFF OMITTED] 38515.105
    
    [GRAPHIC] [TIFF OMITTED] 38515.106
    
    [GRAPHIC] [TIFF OMITTED] 38515.107
    
    [GRAPHIC] [TIFF OMITTED] 38515.108
    
    [GRAPHIC] [TIFF OMITTED] 38515.109
    
    [GRAPHIC] [TIFF OMITTED] 38515.110
    
    [GRAPHIC] [TIFF OMITTED] 38515.111
    
    [GRAPHIC] [TIFF OMITTED] 38515.112
    
    [GRAPHIC] [TIFF OMITTED] 38515.113
    
    [GRAPHIC] [TIFF OMITTED] 38515.114
    
    [GRAPHIC] [TIFF OMITTED] 38515.115
    
    [GRAPHIC] [TIFF OMITTED] 38515.116
    
    [GRAPHIC] [TIFF OMITTED] 38515.117
    
    [GRAPHIC] [TIFF OMITTED] 38515.118
    
    [GRAPHIC] [TIFF OMITTED] 38515.119
    
    [GRAPHIC] [TIFF OMITTED] 38515.120
    
    [GRAPHIC] [TIFF OMITTED] 38515.121
    
    [GRAPHIC] [TIFF OMITTED] 38515.122
    
    [GRAPHIC] [TIFF OMITTED] 38515.123
    
    [GRAPHIC] [TIFF OMITTED] 38515.124
    
    [GRAPHIC] [TIFF OMITTED] 38515.125
    
    [GRAPHIC] [TIFF OMITTED] 38515.126
    
    [GRAPHIC] [TIFF OMITTED] 38515.127
    
    [GRAPHIC] [TIFF OMITTED] 38515.128
    
    [GRAPHIC] [TIFF OMITTED] 38515.129
    
    [GRAPHIC] [TIFF OMITTED] 38515.130
    
    [GRAPHIC] [TIFF OMITTED] 38515.131
    
    [GRAPHIC] [TIFF OMITTED] 38515.132
    
    [GRAPHIC] [TIFF OMITTED] 38515.133
    
    [GRAPHIC] [TIFF OMITTED] 38515.134
    
    [GRAPHIC] [TIFF OMITTED] 38515.135
    
    [GRAPHIC] [TIFF OMITTED] 38515.136
    
    [GRAPHIC] [TIFF OMITTED] 38515.137
    
    [GRAPHIC] [TIFF OMITTED] 38515.138
    
    [GRAPHIC] [TIFF OMITTED] 38515.139
    
    [GRAPHIC] [TIFF OMITTED] 38515.140
    
    [GRAPHIC] [TIFF OMITTED] 38515.141
    
    [GRAPHIC] [TIFF OMITTED] 38515.142
    
    [GRAPHIC] [TIFF OMITTED] 38515.143
    
    [GRAPHIC] [TIFF OMITTED] 38515.144
    
    [GRAPHIC] [TIFF OMITTED] 38515.145
    
    [GRAPHIC] [TIFF OMITTED] 38515.146
    
    [GRAPHIC] [TIFF OMITTED] 38515.147
    
    [GRAPHIC] [TIFF OMITTED] 38515.148
    
    [GRAPHIC] [TIFF OMITTED] 38515.149
    
                                    

</pre></body></html>
